<html>
<title> - [H.A.S.C. No. 111-148]NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2011 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED ELEVENTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





                         [H.A.S.C. No. 111-148]
====================================================================== 
                                HEARING

                                   ON
 
-                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2011

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                SUBCOMMITTEE ON STRATEGIC FORCES HEARING

                                   ON

     BUDGET REQUEST FOR DEPARTMENT OF ENERGY ATOMIC ENERGY DEFENSE 
                               ACTIVITIES

                               __________

                              HEARING HELD

                             MARCH 25, 2010

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     



                  U.S. GOVERNMENT PRINTING OFFICE

58-229                    WASHINGTON : 2010 
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                    SUBCOMMITTEE ON STRATEGIC FORCES

               JAMES R. LANGEVIN, Rhode Island, Chairman
JOHN SPRATT, South Carolina          MICHAEL TURNER, Ohio
LORETTA SANCHEZ, California          MAC THORNBERRY, Texas
ROBERT ANDREWS, New Jersey           TRENT FRANKS, Arizona
RICK LARSEN, Washington              DOUG LAMBORN, Colorado
MARTIN HEINRICH, New Mexico          MIKE ROGERS, Alabama
SCOTT MURPHY, New York
WILLIAM L. OWENS, New York
                Bob DeGrasse, Professional Staff Member
                Leonor Tomero, Professional Staff Member
                 Kari Bingen, Professional Staff Member
                 Alejandra Villarreal, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2010

                                                                   Page

Hearing:

Thursday, March 25, 2010, Fiscal Year 2011 National Defense 
  Authorization Act--Budget Request for Department of Energy 
  Atomic Energy Defense Activities...............................     1

Appendix:

Thursday, March 25, 2010.........................................    29
                              ----------                              

                        THURSDAY, MARCH 25, 2010
FISCAL YEAR 2011 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST FOR 
         DEPARTMENT OF ENERGY ATOMIC ENERGY DEFENSE ACTIVITIES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Langevin, Hon. James R., a Representative from Rhode Island, 
  Chairman, Subcommittee on Strategic Forces.....................     1
Turner, Hon. Michael, a Representative from Ohio, Ranking Member, 
  Subcommittee on Strategic Forces...............................     3

                               WITNESSES

D'Agostino, Hon. Thomas P., Under Secretary for Nuclear Security 
  and Administrator, National Nuclear Security Administration, 
  U.S. Department of Energy......................................     6
Triay, Hon. Ines, Ph.D., Assistant Secretary for Environmental 
  Management, U.S. Department of Energy..........................     9
Winokur, Hon. Peter S., Ph.D., Chairman, Defense Nuclear 
  Facilities Safety Board........................................    11

                                APPENDIX

Prepared Statements:

    D'Agostino, Hon. Thomas P....................................    42
    Langevin, Hon. James R.......................................    33
    Triay, Hon. Ines.............................................    88
    Turner, Hon. Michael.........................................    37
    Winokur, Hon. Peter S........................................    96

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the Hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Langevin.................................................   113
    Mr. Larsen...................................................   122
    Mr. Spratt...................................................   121
FISCAL YEAR 2011 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST FOR 
         DEPARTMENT OF ENERGY ATOMIC ENERGY DEFENSE ACTIVITIES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Subcommittee on Strategic Forces,
                          Washington, DC, Thursday, March 25, 2010.
    The subcommittee met, pursuant to call, at 1:40 p.m., in 
room 2118, Rayburn House Office Building, Hon. James Langevin 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. JAMES R. LANGEVIN, A REPRESENTATIVE 
 FROM RHODE ISLAND, CHAIRMAN, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Langevin. Good afternoon. This hearing of the 
Subcommittee on Strategic Forces will now come to order. Today 
we will be taking testimony on the Department of Energy's 
(DOE's) Fiscal Year 2011 Budget for Atomic Energy Defense 
Activities. The President's budget request for DOE's defense 
activities, including nuclear weapons nonproliferation and 
waste cleanup is almost $18 billion for fiscal year 2011, an 
increase of over 7 percent from last year's appropriated level. 
This request, which must be authorized by our committee, 
amounts to almost two-thirds of the entire budget request for 
the Department of Energy.
    Let me begin the hearing today by welcoming our three 
distinguished witnesses. First, we have Mr. Tom D'Agostino, the 
Under Secretary of Energy for Nuclear Security and 
Administrator of the National Nuclear Security Administration 
(NNSA). Mr. Secretary, it is a pleasure to have you here once 
again.
    Mr. D'Agostino is a graduate of the Naval Academy and the 
Naval War College. As an officer in the nuclear Navy, he 
distinguished himself as the program manager for the Seawolf 
submarine propulsion system. He retired from the Navy Reserve 
as a Captain. And since joining the DOE in 1990, Mr. D'Agostino 
has had a distinguished career in increasingly responsible 
roles, assuring the safety, security, and reliability of the 
Nation's nuclear stockpile.
    Mr. Langevin. Welcome back to the subcommittee.
    Secretary D'Agostino. Thank you, sir.
    Mr. Langevin. Second, Dr. Ines Triay, DOE's Assistant 
Secretary for Environmental Management, has agreed to appear 
before the subcommittee today. Dr. Triay received her 
bachelor's degree in chemistry and her doctorate degree in 
physical chemistry from the University of Miami in Florida. Her 
career has included key positions at the Los Alamos National 
Laboratory and, as DOE's manager of the Carlsbad Field Office 
in New Mexico, she spearheaded national efforts to accelerate 
the cleanup of transuranic waste sites and disposal at the 
Waste Isolation Pilot Plant (WIPP) in Carlsbad. Since joining 
DOE's headquarters staff in 2005, she has worked tirelessly to 
expedite the cleanup of the legacy left behind by DOE's Cold 
War nuclear programs. Welcome back, Dr. Triay, and I look 
forward to your testimony here today as well.
    Secretary Triay. Thank you very much.
    Mr. Langevin. Finally, Dr. Peter Winokur, Chairman of the 
Defense Nuclear Facilities Safety Board (DNFSB), is with us 
this afternoon. This is Dr. Winokur's first opportunity to 
appear before the subcommittee and this will be the first 
public appearance as Chairman of the DNFSB, having just been 
appointed to that post by President Obama last Friday.
    Congratulations, Dr. Winokur, on that.
    Dr. Winokur received his bachelor's degree in physics from 
Cooper Union in New York and his doctorate from the University 
of Maryland. He has worked in senior technical positions at 
Sandia National Laboratories and the Army's Harry Diamond 
Laboratories and has been a member of the Defense Science Board 
since 2006.
    Welcome again, Dr. Winokur, to you too and, again, to all 
of our witnesses and thank you for being here today. We greatly 
look forward to your testimony.
    This committee has a long history of supporting the 
critical missions performed by the Department, including 
ensuring the reliability, safety, and security of our nuclear 
stockpile; conducting the scientific, engineering and 
production activities necessary to support the stockpile; 
keeping our nuclear weapons and the weapons complex safe from 
physical, cyber, and other threats; leading the government's 
international nuclear nonproliferation efforts; and cleaning up 
the environmental legacy of nuclear stockpile work.
    But the committee has also had an equally longstanding 
record of vigilant oversight. In the late 1990s, in the wake of 
security and safety problems in the nuclear weapons complex, 
committee members, including Mac Thornberry and now-Under 
Secretary Ellen Tauscher, spearheaded efforts to enact Title 32 
of the National Defense Authorization Act for Fiscal Year 2000 
and, as you know, create the NNSA as a separately organized 
agency within the Department of Energy.
    In the late 1980s when the high cost of cleaning up the 
legacy Cold War weapons production was just beginning to be 
uncovered, John Spratt and now-Senator John Kyl led this 
committee's efforts to create a separate organization within 
the Department to manage the environmental cleanup program.
    During that same era, the committee played a key role in 
ensuring that the Department's operational activities would be 
subject to oversight by an independent body by leading the 
legislative effort to establish the Defense Nuclear Facilities 
Safety Board as part of the National Defense Authorization Act 
for Fiscal Year 1989. So, you see, each of your organizations 
can trace its heritage to the rigorous oversight performed by 
this subcommittee.
    Having assumed the chairmanship of the subcommittee just 
last summer, let me assure the witnesses that I am committed to 
continuing our tradition of rigorous oversight and doing so in 
a very bipartisan manner. I look forward to partnering with you 
in the efforts that you perform for our Nation, and we are 
grateful to all of you for your service. That said, we are 
eager to hear your testimony on the Fiscal Year 2011 budget 
request.
    Under Secretary D'Agostino, I am especially interested in 
how the NNSA intends to implement the Stockpile Management Plan 
mandated by section 3113 of the National Defense Authorization 
Act for Fiscal Year 2010. This statute is probably the most 
recent example of the bipartisan efforts of our committee, and 
I believe it can form the framework for an enduring consensus 
to ensure the health, safety, and the security of the 
stockpile.
    Assistant Secretary Triay, last year's economic stimulus 
package contained more than $5 billion to accelerate defense 
environmental cleanup activities. We look forward to hearing 
from you on how these funds have been used and how efforts 
undertaken with stimulus funding differ from the core work of 
the cleanup program originally as it began.
    And finally, Chairman Winokur, I believe it is only the 
fifth time that the board has appeared before the subcommittee 
in its 20-year history, and the first time since 1996. In your 
testimony here today, I would like you to please provide us 
with your candid views about the most challenging safety issues 
that DOE and NNSA face, both in ongoing operations and in the 
construction of new facilities. These are some of the concerns 
that we hope you will address in your statements this afternoon 
and during our discussions that will follow your testimony. And 
again, we look forward to hearing from you.
    [The prepared statement of Mr. Langevin can be found in the 
Appendix on page 33.]
    With that, let me turn now to the ranking member, Mr. 
Turner, for any comments that he may have. Mr. Turner.

 STATEMENT OF HON. MICHAEL TURNER, A REPRESENTATIVE FROM OHIO, 
        RANKING MEMBER, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Turner. Thank you, Mr. Chairman. I also would like to 
welcome Mr. D'Agostino and Dr. Triay and Dr. Winokur. I also 
understand that you were just confirmed last week by the 
Senate. Congratulations on your confirmation. And I want to 
thank all of you for your leadership and for your work, your 
service to the Nation, and we look forward to hearing your 
message here today. As I noted last week during our hearing on 
U.S. strategic posture, we are in the midst of some potentially 
significant changes in our nuclear policy and posture. The 
nuclear policy review, excuse me, the Nuclear Posture Review, 
NPR, should be released within the coming weeks and, according 
to press reports, the U.S. and Russia are close to completing a 
new Strategic Arms Reduction Treaty, START. These events are 
likely to have considerable implications for our Nation's 
nuclear stockpile and infrastructure.
    At this same budget hearing last year, I commented that 
fiscal year 2010 was a year of ``treading water.'' The Science 
and Engineering campaigns were stagnant, key decisions on 
warhead refurbishment were avoided, and key construction 
projects were halted. The Strategic Posture Commission observed 
that NNSA had a reasonable plan for transforming the complex 
but lacked the needed funding. All these decisions were on hold 
pending the completion of the NPR, which we still have not 
received.
    Mr. D'Agostino, last year, you testified that we were in a 
``one-year budget scenario . . . There are a lot of flatline 
numbers when you look at our program, particularly into the 
out-years.'' Continuing to quote you, you said, ``I don't like 
the idea of having flatline numbers in the out-years, because 
it sends a signal to our workforce that the country thinks it 
has got no future.'' You are right. Flatline numbers do send a 
signal, which is why it is a welcome change to see a 13-percent 
increase in this year's budget request for NNSA.
    What this request tells us that is that the Administration 
does recognize, as Vice President Biden recently said, that our 
``nuclear complex and experts were neglected and underfunded.''
    However, commitment to the sustainment and modernization of 
our Nation's deterrence capabilities cannot be measured with a 
single year's budget request, so I hope to see this new level 
of commitment continuing into the out-years.
    It appears that the Administration has embraced the 
Stockpile Management Program established by this committee last 
year, and will fund more comprehensive Life Extension Programs, 
surveillance activities, warhead safety and security 
enhancements, and infrastructure modernization.
    Mr. D'Agostino, I hope that you will address these efforts 
in your testimony today. I do want to pause for a minute to 
give you credit. I have spoken to you privately and I want to 
say it publicly the amount of credit I think you deserve for 
this. You have been very outspoken on the needs of the NNSA. 
You have provided a plan for addressing the issues that have 
been raised and you have been successful as a voice in the 
Administration for securing this important additional 
investment, and I appreciate your commitment and accomplishment 
here.
    Secretary D'Agostino. Thank you, sir.
    Mr. Turner. I would also like your thought on the recent 
JASON report on life extension options for U.S. nuclear 
weapons. I was concerned about how certain findings in the 
report were being interpreted--basically, that ``everything is 
fine, stick with the status quo''--because that is not what I 
was hearing in briefings and visits to the labs. So I asked the 
three nuclear security lab directors to comment on these 
findings, and earlier today I released their letters to me.
    One lab director wrote that certain findings ``understate . 
. . the challenges and risks . . . [and] also understate the 
future risks that we must anticipate'' in sustaining the 
nuclear U.S. stockpile. Another wrote that current approaches 
cannot sustain our weapons for decades because ``the available 
mitigation actions . . . are reaching their limits.'' The 
Strategic Posture Commission concluded that current warhead 
Life Extension Programs could not be counted on indefinitely.
    We would ask today whether you could help us understand why 
improvements in the safety, security, and reliability of the 
stockpile would require changes from current life extension 
approaches.
    The committee also must have confidence that the additional 
funds received by NNSA can be spent wisely, whether in the 
weapons activities account or nonproliferation account. In 
previous years, the nonproliferation program had difficulty 
executing the funding it received and, as a result, carried 
over large unspent balances from year to year. This year, the 
nonproliferation program request has grown by 26 percent. This 
growth is a reflection of the President's direction, provided 
in a speech last April in Prague, to secure all vulnerable 
nuclear material around the world within four years.
    This is a noble undertaking but, a year later, the 
subcommittee still has not received the Administration's plans. 
Therefore, it is difficult to assess whether this 26-percent 
plus-up can be spent wisely.
    In the area of Environmental Management (EM), I want to 
take a moment to highlight a success story. Miamisburg Mound, 
in my district in Ohio, was once a key Cold War-era nuclear 
production facility. After an extensive Environmental 
Management cleanup effort--thanks in large part to the 
leadership of Dr. Triay and her predecessors--Mound has been 
redeveloped into a business park for high-tech companies.
    I also want to recognize that Bob DeGrasse had a hand in 
that, also, as he has gone through various phases of his 
career.
    There are many other sites across the country that require 
cleanup funds and, as the nuclear complex continues to shrink 
and additional Cold War-era facilities are decommissioned, the 
list will only get longer.
    Dr. Triay, I would appreciate an update on the progress you 
have made for your priorities and the challenges ahead. I would 
also like to hear how the Environmental Management has spent 
the $5 million it received in stimulus funds last year, and how 
you ensure oversight and accountability of those funds.
    As I have said in previous years, I am deeply concerned 
about safety and security. There is no margin for error in the 
nuclear business. I would appreciate an update on NNSA's 
efforts to implement its new Graded Security Protection policy. 
I also look forward to hearing Dr. Winokur's assessment of the 
key safety issues at our Nation's defense nuclear facilities, 
particularly with respect to new construction projects.
    Now, on a final note, I said earlier that budgets send a 
signal. Policies also send a signal. We all share the 
President's vision of ``a world without nuclear weapons.'' 
However, I worry when I hear Administration officials discuss 
it as a policy because, as we all know, policy drives strategy, 
programs, and budgets. Though we are seeing a one-year influx 
of funding, I am concerned that a zero-policy--once 
implemented--would lead to less program and budget support in 
the out-years. And that is not in the best interest of our 
national security.
    Mr. D'Agostino, Dr. Triay and Dr. Winokur, thank you again 
for being with us today. You each possess a tremendous amount 
of expertise and insight into our Nation's nuclear stockpile 
and infrastructure, and our Nation is better off as a result of 
your service. I look forward to hearing your testimony and 
thank you, Mr. Chairman.
    [The prepared statement of Mr. Turner can be found in the 
Appendix on page 37.]
    Mr. Langevin. I want to thank the ranking member. In 
particular, I want to thank you for those comments. And before 
we turn to the witnesses, I want to comment on points you 
raised, in particular, about the JASON Panel report on life 
extension options, and I appreciate your efforts to elicit the 
lab directors' views on that report. And I believe it would be 
very helpful to have an opportunity to explore the differences 
between the JASON Panel and the lab directors in a classified 
briefing.
    And so yesterday, I asked Secretary D'Agostino if he would 
help arrange a meeting of subcommittee members with the lab 
directors and the JASON study leaders, and he has agreed, and 
we appreciate that. And we have also consulted with the 
chairman of the JASON and he also welcomes the opportunity so I 
expect that, in very short order, we will have a chance to 
explore these issues in full detail.
    Mr. Turner. Mr. Chairman, if I could, just one note on 
that. I think the lab directors and the JASON report on the 
classified area are probably in agreement. It is the issue of 
the declassified version and, perhaps, out of our hearing if we 
have a classified hearing, something on the unclassified side 
could come out that might be even more helpful to clarify it.
    Mr. Langevin. I am sure we could do both of those.
    With that, I know that we have received a prepared 
statement for each of our witnesses, and these will be entered 
into the record. So, if you could, please summarize the key 
points so that we will have plenty of time for questions and 
answers, and we will begin with Secretary D'Agostino. Welcome.

  STATEMENT OF HON. THOMAS P. D'AGOSTINO, UNDER SECRETARY FOR 
 NUCLEAR SECURITY AND ADMINISTRATOR, NATIONAL NUCLEAR SECURITY 
           ADMINISTRATION, U.S. DEPARTMENT OF ENERGY

    Secretary D'Agostino. Thank you, Mr. Chairman, and members 
of the subcommittee. I am pleased to be here today before you 
to discuss the Department of Energy's Fiscal Year 2011 budget 
request for the National Nuclear Security Administration.
    Last year when I appeared before the subcommittee, the 
focus of my testimony was the continuing transformation of an 
old Cold War outdated nuclear weapons complex and shifting it 
into a 21st-century Nuclear Security Enterprise in our initial 
efforts in implementing the President's nuclear security 
agenda. Since that time, we have defined a portfolio of 
programs to carry out the nuclear security agenda. Our budget 
request, as you have noted, is $11.2 billion, an increase of 
more than 13 percent from last year.
    In developing this portfolio, Secretary Chu and I worked 
very closely with Secretary Gates to ensure that we remained 
focused on meeting Department of Defense requirements. Within 
our overall funding request, Weapons Activities account 
increases nearly 10 percent to a level of $7 billion; Defense 
Nuclear Nonproliferation increases nearly 26 percent to $2.7 
billion; and Naval Reactors increases more than 13 percent to a 
level of $1.1 billion. Our request can be summarized in four 
components that collectively ensure we can implement the 
President's direction outlined in his April 2009 Prague speech 
and reinforced during his State of the Union address.
    First, our request describes NNSA's crucial role in 
implementing the President's nuclear security agenda, including 
his call to secure all vulnerable nuclear material around the 
world in four years. A $2.7 billion request for 
nonproliferation programs includes key programs directly linked 
to the President's agenda, including nearly $560 million for 
the Global Threat Reduction Initiative to secure all vulnerable 
nuclear material at civilian sites worldwide; over $1 billion 
for a Fissile Material Disposition program to permanently 
eliminate 68 metric tons of surplus weapons-grade plutonium and 
more than 200 metric tons of surplus highly enriched uranium; 
and over $350 million for Nonproliferation and Verification 
Research and Development programs, to provide technical support 
for arms control and for nonproliferation.
    The second component is our investment in the tools and 
capabilities required to effectively manage the stockpile. 
Based on preliminary analysis of the draft Nuclear Posture 
Review, we in the Department of Defense concluded that 
maintaining the safety, security, and effectiveness of the 
enduring nuclear deterrent requires increased investments to 
strengthen an aging physical infrastructure and sustain a 
depleted technical human capital base.
    Our request includes more than $7 billion to ensure the 
capabilities required to complete ongoing weapons Life 
Extension Programs, to strengthen the science, technology and 
engineering base, to reinvest in the scientists, technicians 
and engineers who carry out the NNSA missions.
    These activities are consistent with the Stockpile 
Management Program responsibilities outlined in the Fiscal Year 
2010 National Defense Authorization Act that you mentioned 
earlier.
    In previous testimony, I have discussed the challenges 
facing the Stockpile Stewardship Program and how to make 
effective use of the program's full suite of science-based 
tools and capabilities, and I am pleased to report that there 
has been excellent progress. Each day, we are coming closer to 
realizing the promise of the National Ignition Facility (NIF) 
at the Lawrence Livermore Lab for stewardship. The scientists 
at NIF have already completed an important series of 
experiments that have provided critical validations of advanced 
modeling used in weapons assessments in a very relevant regime.
    National Ignition Facilities produced over one megajoule of 
laser energy, more than 30 times the energy available at the 
OMEGA laser and the community completed key ignition 
preparatory experiments at NIF and OMEGA. This program is on 
track for the first experiments on thermonuclear ignition later 
this year.
    The Z facility at Sandia continues to provide the state-of-
the-art materials data; for example, the equation state of a 
material for advanced safety methods was measured at pressures 
10 times those previously possible. The Z facility also 
increases its x-ray output by 50 percent to a level essential 
for weapons component certification.
    The Dual Axis Radiographic Hydrodynamic Testing Facility, 
or DARHT facility, at Los Alamos successfully conducted its 
first full hydrodynamic test that included multipulse and 
multiaxis radiography and delivered results of exceptional 
quality. This is an incredible achievement by the laboratory.
    Operations at these key science facilities will provide the 
critical high energy density physics materials measurement data 
that we need to enhance and strengthen our science-based 
certification approaches in order to maintain our deterrent.
    While we are very pleased with the contributions of the 
above noted facilities, as Vice President Biden highlighted in 
his speech, we need to continue to invest in modern sustainable 
infrastructure that supports the full range of NNSA's mission--
not just Stockpile Stewardship. He stated that ``this 
investment is not only consistent with our nonproliferation 
agenda; it is essential to it.'' And, there is an emerging 
bipartisan consensus that now is the time to make these 
investments to provide the foundation for future U.S. security, 
as noted by Senator Sam Nunn and Secretaries George Schultz, 
Henry Kissinger and William Perry last January.
    This leads me to the third component: our investment in 
recapitalizing our nuclear infrastructure and deterrent 
capability into a 21st-century Nuclear Security Enterprise.
    As the Vice President also stated last month, ``some of the 
facilities we used to handle uranium and plutonium date back to 
the days when the world's great powers were led by Truman, 
Churchill and Stalin. The signs of age and decay are becoming 
more and more apparent every day.''
    The request includes specific funds to continue the design 
of the Uranium Processing Facility (UPF) at our Y-12 plant, and 
the construction of the Chemistry and Metallurgy Research 
Replacement (CMRR) facility at Los Alamos.
    The Naval Reactors request includes funds to address the 
Ohio-class replacement, including new reactor plant and our 
need to refuel one of our land-based prototypes to provide the 
platform to demonstrate the manufacturability of the Ohio 
replacement core and realistically test systems and components.
    Mr. Chairman, investing now in a modern sustainable Nuclear 
Security Enterprise is the right thing to do. The investment 
will support the full range of nuclear security missions, 
including stockpile stewardship, nonproliferation, arms control 
and treaty verification, nuclear counterterrorism, nuclear 
forensics, and naval nuclear propulsion--all of these things 
together to beef up and support our security.
    Finally and lastly, the fourth component, one that ties all 
our missions together, is our commitment to aggressive 
management reform across the NNSA. With the increased resources 
provided by Congress comes increased responsibility on our part 
to be effective stewards of taxpayers' money and to ensure that 
the NNSA is an efficient and cost-effective enterprise. We take 
this responsibility very seriously. We initiated a Zero-Based 
Security Review to implement greater efficiencies and to drive 
down these costs while sustaining highly effective security 
capabilities.
    Our supply chain management center has already saved 
taxpayers more than $130 million, largely through e-sourcing 
and strategic sourcing.
    Finally, I and the entire NNSA leadership team stress 
performance and financial accountability at all levels of our 
organization for our operations. In 2009, our programs met or 
exceeded 95 percent of their performance objectives and, as we 
continue to reduce the percentage of carryover, uncosted, 
uncommitted balances in several of our nonproliferation 
programs.
    And I will be glad to go into the detail during the 
question and answer.
    Investments made to date in the Nuclear Security Enterprise 
are providing the tools to address a broad array of nuclear 
security challenges. However, we must continue to cultivate the 
talents of our people to use those tools effectively, as our 
highly dedicated workforce is really, in the end, the key to 
our success. Thank you, Mr. Chairman. I would be pleased to 
respond to your questions.
    [The prepared statement of Secretary D'Agostino can be 
found in the Appendix on page 42.]
    Mr. Langevin. Mr. Secretary, thank you very much for your 
testimony. And Secretary Triay, the floor is yours.

STATEMENT OF HON. INES R. TRIAY, PH.D., ASSISTANT SECRETARY FOR 
      ENVIRONMENTAL MANAGEMENT, U.S. DEPARTMENT OF ENERGY

    Secretary Triay. Good afternoon, Chairman Langevin, Ranking 
Member Turner and members of the subcommittee. I am pleased to 
be here today and to address your questions regarding the 
Office of Environmental Management's fiscal year 2011 budget 
request.
    The Office of Environmental Management's mission is to 
complete the legacy environmental cleanup left by the Cold War 
in a safe, secure, and compliant manner. I am very pleased that 
we were able to present to Congress a budget that positions the 
program to be fully compliant with our regulatory commitments 
and supports reducing the risks associated with one of our 
highest environmental risk activities, highly radioactive waste 
in underground tanks, as well as achieve footprint reduction 
across the legacy cleanup complex. My goal remains to complete 
quality cleanup work safely, on schedule, and within costs in 
order to deliver demonstrated value to the American taxpayer.
    Environmental Management cleanup objectives will continue 
to be advanced in fiscal year 2011 by the infusion of the $6 
billion from the American Recovery and Reinvestment Act of 
2009. Through January 2010, the Office of Environmental 
Management had obligated $5.7 billion and, as of March 15, we 
have spent $1.55 billion, leading to thousands of jobs created 
and/or saved at our sites.
    In fiscal year 2011, the Office of Environmental Management 
will continue to draw on the $6 billion of Recovery Act funds 
to advance key cleanup goals. Recovery Act funds allow the 
Office of Environmental Management to meet all of our 
regulatory compliance requirements in fiscal year 2011. This 
funding has allowed the Office of Environmental Management to 
leverage base program dollars enabling the reduction of our 
operating footprint from 900 square miles to approximately 540 
square miles by the end of fiscal year 2011. This is a 40-
percent reduction, which will position the program to advance 
forward the ultimate goal of 90-percent reduction by the end of 
fiscal year 2015.
    We are also able to accelerate the legacy cleanup at 
Brookhaven National Laboratory and the Separations Process 
Research Unit in New York, and Stanford Linear Accelerator 
Center in California into fiscal year 2011 with Recovery Act 
funding.
    This budget request strikes a balance between maintaining 
support for the Office of Environmental Management's core 
commitments and programs while strengthening investments in 
activities needed to ensure the long-term success of our 
cleanup mission. The budget request significantly increases the 
Office of Environmental Management investment in science and 
technology (S&T) areas that are critical to our long-term 
success.
    Specifically, this request targets $60 million in funding 
to Hanford's Office of River Protection to use in developing 
and deploying new technologies for treating tank waste. This 
funding is needed to address near-term technical risks that 
have been identified, but is also needed to leverage and bring 
forward new technologies that could help us reduce the life-
cycle costs and schedule for cleanup of these wastes.
    The Office of Environmental Management will also continue 
to strengthen and deploy groundwater and decontamination and 
decommission in cleanup technologies. Specifically, we will 
continue the development of an integrated, high-performance 
computer modeling capability for waste degradation and 
contaminant release. This state-of-the-art scientific tool will 
enable robust and standardized assessments of performance and 
risk for cleanup and closure activities. This tool will also 
help us better estimate cleanup time and costs and reduce 
uncertainties.
    The request also provides an additional $50 million to 
accelerate the Waste Treatment and Immobilization Plant (WTP) 
in Hanford, boosting the budget for the plan to $740 million in 
fiscal year 2011. The additional funding will be used to 
accelerate completion of the design for the Waste Treatment and 
Immobilization Plant. Prior to design completion, it is 
critical that technical issues are addressed and incorporated 
in a timely manner. Our intent is to mitigate these risks early 
and get the design matured to 90 or 100 percent.
    The fiscal year 2011 request makes a significant investment 
in the decontamination and decommissioning of the Portsmouth 
Gaseous Diffusion Plant located in Ohio. This investment 
enables the Office of Environmental Management to accelerate 
the cleanup of the Portsmouth site to 15 to 20 years, leading 
to a significant reduction in the duration and cost of the 
cleanup.
    Now that I have given an overview of our fiscal year budget 
request, I would like to take a few moments to discuss some of 
the areas I will be focusing on as the program moves forward. 
The Office of Environmental Management continues to adhere to a 
``Safety First'' culture that integrates environment, safety, 
and health requirements and controls into all work activities. 
Our first priority continues to be the health and safety of our 
employees and the communities surrounding our cleanup sites. It 
is my duty to ensure that our workers go home as healthy and 
fit as they came to work.
    Under my leadership, my program has embarked upon a journey 
to excellence. We have developed a new business model which 
provides a solid management base for the Office of 
Environmental Management to become an excellent high-performing 
organization. This implementation is key to performing our 
cleanup mission effectively and efficiently.
    A key component in this process is the alignment and 
understanding of headquarters and field operational roles and 
responsibilities. Toward that end, our management's attention 
will continue to focus on improving project performance, 
aligning project and contract management, streamlining the 
acquisition process, and continuing our very strong performance 
in awarding cleanup work to small businesses. We will continue 
to conduct construction project reviews. These reviews examine 
all aspects of a construction project, including project 
management, technology, and engineering. These reviews assess 
the progress of each of our major projects and determine their 
overall health and ability to meet costs and scheduled goals. 
These reviews are scheduled approximately every six to nine 
months and are conducted to provide the Office of Environmental 
Management leadership the ability to proactively reduce project 
risk so that the issues and solutions can be identified early, 
rather than reacted to once problems are realized.
    With these improvements, we are confident that the 
Environmental Management program can succeed in its mission. 
Chairman Langevin, Ranking Member Turner and members of the 
subcommittee, I look forward to addressing your questions.
    Mr. Langevin. Thank you, Secretary Triay.
    [The prepared statement of Secretary Triay can be found in 
the Appendix on page 88.]
    Mr. Langevin. Chairman Winokur, the floor is yours.

 STATEMENT OF HON. PETER S. WINOKUR, PH.D., CHAIRMAN, DEFENSE 
                NUCLEAR FACILITIES SAFETY BOARD

    Dr. Winokur. Thank you, Mr. Chairman, and members of the 
subcommittee. This is a period of significant transition for 
the Department of Energy which is accompanied by billions in 
construction projects and a huge portfolio of Recovery Act 
work. The Board believes it is prudent to proactively address 
safety issues at DOE's defense nuclear facilities to ward off 
threats to public health and safety and to resolve safety 
concerns early in the design process.
    Our agency was established by Congress in 1988 to provide 
nuclear safety oversight for the defense nuclear facilities 
operated by DOE and, now, NNSA. We analyze facility consistent 
designs, operations, practices, and events with an eye toward 
ensuring that safety-related controls are identified and 
implemented.
    We also carefully evaluate the directives that govern work 
by DOE and NNSA. We provide our findings to DOE and NNSA so 
they can take the actions that are needed to ensure that public 
health and safety, including worker safety, are protected 
adequately. The Board evaluates DOE and NNSA's activities in 
the context of Integrated Safety Management. When properly 
implemented at all levels, Integrated Safety Management results 
in facility designs that efficiently address hazards, operating 
procedures that are safe and productive, and feedback that 
drives continuous improvement in both safety and efficiency.
    The Board safety oversight targets several broad safety 
issues. To begin with, the Board puts a great deal of effort 
into ensuring that DOE preserves and continually improves its 
safety directives. The Board constantly emphasizes that nuclear 
hazards are different and demand a safety strategy that is 
based on defense and depth, redundancy, technical competence 
and research and development (R&D). There are no shortcuts to 
nuclear safety. The Board strives to ensure that DOE considers 
safety early in the design of new defense nuclear facilities. 
DOE and NNSA are designing and building facilities with a total 
project cost of more than $20 billion.
    I cannot overstate how important it is to integrate safety 
into the design of these facilities at an early stage. Failing 
to do this will lead to surprises and costly changes late in 
the process.
    The Board is committed to the early resolution of safety 
issues with DOE. In that regard, the Board provides quarterly 
reports to Congress on the status of significant unresolved 
technical differences between the Board and DOE on issues 
concerning the design and construction of DOE's defense nuclear 
facilities. The Board is continuing to urge NNSA to replace 
unsound facilities and invest in infrastructure for the future. 
The 9212 Complex at Y-12 and the Chemistry and Metallurgy 
Research building at Los Alamos are both well-overdue for 
replacement. At NNSA's newer facilities--and by ``newer,'' I 
mean facilities that are 10 to 30 years old, as opposed to 50 
to 60 years old--need upgrades to make sure they will remain 
safe and reliable.
    The Board is working to ensure that DOE and NNSA safely 
manage their large inventory of nuclear materials. The H-Canyon 
at the Savannah River Site is DOE's preferred disposition path 
for many materials that have been declared excess to national 
security needs and it has operated safely for many years. DOE 
will need to maintain it well and carefully consider how long 
it can operate safely.
    The Board is paying close attention as both DOE and NNSA 
reevaluate their roles in overseeing the work of their 
contractors. In January, NNSA began a six-month moratorium on 
its reviews that is intended to free up resources to mission 
work while NNSA develops a new approach to oversight that 
emphasizes self-assurance by its contractors.
    Last week, DOE issued a safety and security reform plan 
that will redefine the extent to which the DOE's Office of 
Health, Safety, and Security exercises independent oversight of 
DOE and NNSA. The Board plans to hold a public meeting on 
Federal safety oversight for defense nuclear facilities later 
this spring, at which it expects to thoroughly address these 
reform initiatives.
    Finally, Federal sponsorship of research analysis and 
testing at nuclear safety technologies is an important 
component of Federal safety oversight. The Board is continuing 
to emphasize the need for DOE and NNSA to lead an organized 
effort in R&D for nuclear safety.
    This ends my statement. I will be happy to answer any 
questions you have.
    Mr. Langevin. Thank you, Dr. Winokur, and all of you for 
your testimony.
    [The prepared statement of Dr. Winokur can be found in the 
Appendix on page 96.]
    Mr. Langevin. Let me begin with Secretary D'Agostino on a 
couple of things. First of all, Secretary, while the President 
has yet to finalize the Nuclear Posture Review, the NNSA's 
budget contains numerous program budget initiatives that are 
based on a draft of the posture review. So my question is, are 
you confident that these initiatives will continue to be valid 
when the final NPR is released? For example, press reports 
indicate the discussion about the continued requirement of 
forward-based nuclear weapons in Europe. How would a decision 
to reduce or eliminate these weapons affect, for example, the 
B61 Life Extension Program.
    Secretary D'Agostino. I thank you, Mr. Chairman. I am very 
confident, 100-percent confident that the proposal of the 
President that the Administration and I have before you, sir, 
is very consistent with the Nuclear Posture Review, based on a 
couple of pieces of information; one, of course, the Department 
of Energy and I personally have been involved in the drafting 
of this document going through the various decision points and 
looking for that common ground--those pieces, if you will, that 
will have to be done regardless of maybe a final policy 
decision on a specific area or not.
    Specifically, your question on the B61 in Europe, the one 
thing that we have come out with is that there will be a triad 
and an element of that, of course, is an air-delivered warhead. 
The numbers, of course, will come out as part of the Nuclear 
Posture Review but while I won't, I can't comment specifically 
on the Europe question right now, I can't do that publicly, 
what I can say is we know that the future stockpile will have a 
bomb in it. We know the B61 is essentially the bomb that we 
have in the U.S. arsenal that will satisfy the requirements for 
the triad, and we know for a fact that the B61 bomb is in dire 
need of life extension.
    And so, regardless of the specifics of warheads in Europe 
that we are still going to need to work on that bomb, it has 
got old radars, it has got security features and safety 
features that can and should be upgraded, and it needs a 
significant amount of work. So, in essence, to summarize I am 
very comfortable with where we are with the President's budget 
request; it is totally consistent with the draft NPR that I 
have been working on and the final stages of the NPR that we 
have been reviewing. In fact, even today as we get close to 
release on the review.
    Mr. Langevin. Very good, thank you. On another matter that 
may or may not be included in the NPR is the limit on the 
options for managing the stockpile. If the President decides to 
preclude replacement options for managing the stockpile, can 
NNSA continue to ensure the safety, security, and reliability 
of the stockpile?
    Secretary D'Agostino. The answer is, we will; our primary 
goal is the safety, security, and reliability of the stockpile. 
Eliminating options on how to do that, that might put us in a 
space, in an area, that will make it more difficult to meet the 
tenets of the Stockpile Management Program. But the key message 
in our discussions within the Administration is that basic 
tenets and principles of the Stockpile Management Plan put out 
by the National Defense Authorization Act are guiding 
principles for managing the stockpile. The NPR will talk about 
the specific point that you bring up on replacement, but we 
still need to work on the security upgrades.
    And we can do pieces of it without it, but we can't go all 
the way. So it is a matter of degree. The specific degree on 
what else replacement gets you can't be discussed publicly, but 
we would be happy to provide a classified response or discuss 
it in classified session with you, possibly at the JASON 
meeting that you had referenced earlier, Mr. Chairman.
    Mr. Langevin. You are confident that when the NPR comes out 
the definitions of what management is and such will be fully 
defined and discussed in the report?
    Secretary D'Agostino. I am confident that in the versions 
that I have been working on that we want to make sure that this 
question of how far we can go is put out there, is made clear. 
I think risk management is a term that we use a lot in the 
program management business, is allowing you to do a next step 
buys down so much risk in a particular area.
    So there is really, it is a program management question in 
many respects, allowing the program to move this far down track 
takes away this risk, and the question is, is it worth it? But, 
given where we are right now, our main focus ultimately is to 
fully implement the principles of the Stockpile Management 
Program, that the MDA has laid out, and that is essentially a 
drumbeat and theme that we want to use and have been using 
internally, and we will be using this externally as we go out 
and talk about the NPR as it is ready.
    Mr. Langevin. Thank you for that.
    Secretary Triay, your testimony reminds us that we have a 
national debt of between $190 and $250 billion yet to be paid 
to clean up the legacy of the Cold War-era nuclear activities, 
including weapons production. Could we harness the increased 
momentum created by the stimulus funding provided last year to 
help you pay down this debt more quickly and at a lower cost 
than would otherwise be the case? And second, are you making 
efforts to retain employees hired and trained to do the 
specialized cleanup work after the stimulus projects are 
completed?
    Secretary Triay. Thank you, Mr. Chairman. I believe that 
with respect to the progress that we are making, the fact that 
we are going to be able to reduce the operational footprint of 
the Environmental Management program by 40 percent by 2011 is 
testimony to the fact that the maintenance costs that we have 
to spend in order to open the doors of the Environmental 
Management complex every morning can indeed be addressed by 
getting to economies of scale that have been possible by the 
Recovery Act.
    The Recovery Act consists of footprint reduction and, in 
particular, transuranic weight disposition, low-level waste 
disposition, soil and groundwater remediation, and excess 
facilities, decontamination and decommissioning. In particular, 
I would like to highlight that we are going to be completing 
the legacy cleanup at three facilities in the complex, that we 
are going to dramatically decrease the operational footprint in 
the Environmental Management complex that our National Defense 
Authorization Act update for the first time is going to be 
delineating a reduction of the life-cycle costs as a result of 
the investment on Recovery Act, that a reduction is going to be 
on the order of $4 billion on the life-cycle cost and an 
additional cost avoidance that gets reflected in the 
environmental liability of the Federal Government.
    I am convinced that the productivity that one can attain by 
the investment of the moneys in the Recovery Act are going to 
be evident as we move forward in the cleanup delineated by the 
activities in the Recovery Act. One point that I would like to 
also highlight is that we had reported to Congress in the 
Environmental Management program the level funding was going to 
then take us to the year 2017 before we could start dealing 
with some of the excess facilities declared by other program 
offices such as NNSA and Science and Nuclear Energy Program 
Office, and the facilities, the amount of facilities that are 
not even today in the Environmental Management portfolio are on 
the order of 290 facilities. And, right now, because of the 
Recovery Act, we are going to be able to address 55 of those 
facilities and clean out six of the facilities right now by 
2011.
    Mr. Langevin. Thank you. And just going back also to the 
workforce retention, are you making efforts to retain employees 
hired and trained to do this kind of specialized work after 
these stimulus projects are completed?
    Secretary Triay. What we are doing is working very closely 
with the Department of Labor as well as other parts of the 
Administration to ensure that we have a transition plan for 
those workers that have been trained in the nuclear field as a 
result of the Recovery Act funds. We think that, number one, 
the Environmental Management program, with its aging workforce, 
definitely could use some of that talent after 2011, after some 
of our workers retire from the system as a national progression 
of the work that we have been doing in the Environmental 
Management complex. But in addition to that, we are going to 
work across the Department and across the Administration to 
ensure that we have a path forward for the transition of those 
workers.
    We have some experience in doing that. The Legacy 
Management program in the Department of Energy has designated a 
clear path forward for the cleanups that we have completed, 
such as the cleanup at Rocky Flats, Fernald and Mound, and we 
think that we have engaged those transitions in a very 
effective way and we intend to do the same for the Recovery 
Act.
    Mr. Langevin. Very good, Secretary. Thank you.
    Chairman Winokur. I turn to you. Tell me, in short, what 
keeps you up at night? What is the most troubling safety issue 
facing the Department and its oversight operation and 
construction of defense nuclear facilities right now?
    Dr. Winokur. I would put my concerns in two broad 
categories. On the first category is facilities and clearly the 
Department is engaged in $20 billion worth of design and 
construction of new defense nuclear facilities. This includes 
the Waste Treatment Plant at Hanford, Salt Waste Processing 
Facility at Savannah River, the Chemistry and Metallurgy 
Research Replacement facility at Los Alamos, and the Uranium 
Processing Facility at Y-12. And the Board is very actively 
engaged in being sure that safety is integrated into these 
projects at the earliest possible stage. This hopefully reduces 
costs and maintains schedule.
    The second part of the facilities I worry about is we do 
have unsound facilities in the complex. We have an unsound 
facility at Y-12, 9212, as well as the CMR facility at Los 
Alamos.
    And finally, if I had to talk on the facilities about the 
one facility that I have the most concern--and I have a concern 
about it because it is so important to the Nation--it is the 
plutonium facility at Los Alamos. That is the facility that 
deals with plutonium. It is a dangerous material. It deals with 
weapons-grade and heat-source plutonium and the Board recently 
wrote a recommendation on seismic safety at that facility.
    That is one category of concerns I have. The other category 
of concerns I have is about DOE's regulatory reform activities. 
The Department of Energy in this Administration is very 
actively involved in the reform of its directives. It is very 
actively involved in the reform of its oversight approaches and 
initiatives and, as always, the Board is very focused on making 
sure that Integrated Safety Management, which is key to the 
safe operation of these facilities, protection of the workers 
and the public, that that is constantly being reinvigorated so 
that we have the foundation in which to ensure safety.
    Mr. Langevin. Thank you for that answer. I know they place 
a great deal of premium on safety at all of our facilities. 
There can always be room for improvement, a lot of work to do, 
obviously. I will say, I just went out to Los Alamos and, just 
to show my degree of confidence in the safety and security 
there, I went there on Friday the 13th for my visit.
    Let me, if I could, on the issue of facilities, could you 
describe for the committee your advice to the Secretary of 
Energy ensuring that these facilities could safely achieve 
their missions without busting the DOE budget?
    Dr. Winokur. Well, I think that the Board is not in a 
position, very often, to actually look at the economic impacts 
of the actions it asks the Department to take. But I do think 
the Board, in its statute, is very sensitive to the economic 
feasibility of what it wants the Department to do.
    And I think that, for example, in Los Alamos, we recently 
wrote a recommendation to the Secretary of Energy, and the 
Board hopes that--by the way, the Secretary accepted that 
recommendation--and when the Board looks at the implementation 
plan, we do believe that it is going to require upgrades to 
that facility that will cost enough money to get your 
attention. And I am sure that will be a problem or a concern of 
the Administrator and the Secretary of Energy. But certainly 
the Board does not move in the direction of suggesting we need 
a new pit production facility.
    The Board also tries to manage costs, as I told you, by 
making sure that we integrate safety very early into the design 
process. And that is a key approach that we take to make sure 
that costs remain under control because if you have to 
retrofit, that is very costly.
    And the final thing I would say is that the Board is very 
pragmatic in its approaches at times. We had a situation once 
again, at Los Alamos--I don't mean to pick on them--but we did 
have drums in a specific area that the Board felt were a threat 
to the public. The Board agreed with the Department that we 
should process those drums which were intended to go to the 
Waste Isolation Pilot Plant (WIPP) facility at a facility that 
really wasn't qualified to handle Hazard Category 2 facility 
materials, but the Board still felt that it was the most 
effective approach to protect public health and safety, and 
most expedient way to do it, and we were mindful, once again, 
of the economic feasibility of suggesting, perhaps, that a 
whole new facility be built to handle that waste.
    So I don't think we could do well at estimating costs of 
things, but I think the Board is very concerned about economic 
feasibility.
    Mr. Langevin. Thank you. Your insights into that is very 
helpful in terms of the guidance that you are giving. Thank you 
all for your testimony. I have further questions that we will 
probably submit for the record. I am going to turn to the 
ranking member for questions. They have called a vote and there 
are five in this series so I will go with the ranking member's 
questions and then we will recess and we will ask for your 
indulgence and we will be back in short order to continue the 
hearing.
    The ranking member is recognized.
    Mr. Turner. Thank you, Mr. Chairman. As you have heard in 
my comments, we are all excited to see the 13-percent increase 
in this year's budget for NNSA with the additional $624 million 
for Weapons Activities, a 10-percent increase, and $550 million 
for Nuclear Nonproliferation, of 26 percent. In my comments, 
Mr. D'Agostino, I commended you for being an outspoken advocate 
for funding for the agency. And, of course, while we celebrate 
this year, the issue that we are all concerned with is the out-
years, the needs that are going to be coming forward, including 
those for key construction projects. And I wondered if you 
might speak again to us about the issue of what you see in the 
future and the needs in the future recognizing that this is not 
just a one-year infusion of capital that is going to address 
the issues that you have outlined so well for us.
    Secretary D'Agostino. Thank you, Mr. Turner. I would be 
glad to. These are multiyear programs. Everything we do, most 
of the items we do take more than one year to accomplish. As 
Chairman Winokur pointed out, nuclear safety is critically 
important, upgrading these facilities is important. As I 
mentioned in my opening remarks, the workforce has to 
understand that the Nation considers this important for its 
security. That is why the Nuclear Posture Review will help on 
that.
    So these are all multiyear activities. It is not even just 
a five-year, we submit a five-year look ahead to the committee.
    But frankly, we plan out well beyond that. We plan out in 
the 10-year horizon, 10- to 15-year horizon space whether we 
are dealing with the warheads themselves or the infrastructure 
that needs to be upgraded.
    So I am keenly focused on making sure that it is not just 
fiscal year 2011 looks well, or even fiscal year 2012 looks 
well; that fiscal year 2016 is understood when we develop our 
next year's budget, that we have the resources in place in 
fiscal year 2016.
    So, in fact, as we start working on the Uranium Processing 
Facility and the CMRR facility, replacement facility designs 
over the next couple of years with the Board--because the 
Board's input is very important early on--we expect the 
resource requirements in the out-years, fiscal years 2016, 2017 
and 2018, to be fairly significant, particularly on the 
recapitalization space.
    One of the commitments we have in the Department to ensure 
that we get into effective management of these out-year 
resources, Deputy Secretary Poneman recently issued new project 
management policies to make sure that we get ourselves off the 
Government Accountability Office (GAO) high-risk list, for one, 
but more importantly that we become effective stewards of the 
taxpayer dollars. And some elements of that policy include 
doing, particularly for complicated facilities, getting 90 
percent of the design work under your belt before we go off and 
commit to what a facility will cost, what its schedule will be 
and what the scope of the facility will be.
    In the past, we haven't done that and we end up finding 
ourselves not fully understanding what is required. So these 
are some of the changes that we will be putting in place. But 
that out-year commitment is vital to these programs whether we 
are talking about the stockpile, or whether we are talking 
about the science or whether we are talking about the 
infrastructure.
    Mr. Turner. Well, in turning to the issue of the stockpile, 
the Stockpile Management Program and the Life Extension 
Programs, I wish, if you would, speak for a moment on the issue 
of lessening the expectation that for life extension it also 
could have been solved by just one year of infusion, that this 
life extension Stockpile Management Program is going to be 
ongoing, that it represents a continuing need and, really, the 
seriousness of, this is not discretionary, this is something 
that we need to address absolutely.
    Secretary D'Agostino. Certainly. One thing we are very 
clear on: we do have many years, a decade and a half, under our 
belt with stockpile stewardship and we have been watching the 
stockpile for a long period of time, and we do know that 
weapons age, components change over time. Not surprisingly, 
they are in a radiation environment, for example, that we 
should see that. But every five years or so we see something 
significant happen in the stockpile, and we have to address it. 
And we have been fortunate to be able to address it by changing 
margins or working with the Defense Department to changing our 
military capabilities. What that says is, we have to be 
prepared to take care of something we don't fully understand, 
exactly, today. And so that means support for the stockpile 
itself is not just about seeing that set of numbers and 
increases in years 2012, 2013, 2014, and 2015, but it is also 
seeing that the experimental work that happens in the Science 
Campaigns and Engineering Campaigns continues out as well.
    Mr. Turner. You heard my comments concerning the JASON 
report and the concerns that the declassified portion versus 
the classified portion might have downplayed some of the risks 
and that, you know, in asking the lab directors, they provided 
us greater clarification of their view of the report. I 
wondered if you would provide us your thoughts on the 
unclassified version and the classified version of the JASON 
report.
    Secretary D'Agostino. I think the unclassified version 
understates the challenges and the risks associated with 
maintaining the stockpile that is more fully described in the 
classified section of the report. I don't know why we have that 
difference, but we do. But I do think it understates the risks.
    But the unclassified version talks about today's stockpile. 
That we can maintain today's stockpile today. And the concern I 
have is not just what is happening today but what is happening 
out into the future. And since we have--we have this 
understanding that we have problems come up from time to time 
that, fortunately, we have been able to address. What we do 
know is that we just can't maintain things today like we used 
to in the past because we can't make things like we used to in 
the past. In fact, there are many product lines that we used to 
make our current stockpile that we don't have fully up and 
operating, and it would be kind of crazy to go out and try to 
rebuild that capability.
    So, in essence, I would look at this as dealing with the 
problems of our stockpile, using--essentially, we have used up 
the margins and capabilities there and in just using, I would 
say, refurbishment approaches. And now we know we have to look 
at other ways to maintain the stockpile.
    So the challenges are much more significant than I believe 
the unclassified report appears to state.
    Mr. Turner. Dr. Triay, I want to thank you again for your 
dedication on the environmental remediation programs. It makes 
such a difference. Obviously we have to live up to the 
obligation of what the Government has left behind. Doing that 
in a way that is sensitive for economic development potential 
for communities and ensuring that we are leaving behind 
something that is not a threat in the future.
    Your program received a significant amount of stimulus 
funds. I know that you spoke of the stimulus funds and your 
need for assuring accountability whenever you have a large 
amount of dollars that are provided to you all at once. And 
they have to be appropriately allocated to projects that can 
move forward now and also that are of the highest need. I 
appreciate, of course, that Mound was a recipient of those. Can 
you speak about those? We have about a minute. Then we are 
going to have to run to vote, but I would appreciate that.
    Secretary Triay. I think that the Mound cleanup is an 
example of how we need to press forward with the rest of the EM 
portfolio. Number one, a joint vision between the community, 
the regulators, and the Department of what is the end state of 
the cleanup, and we need to get there as soon as possible in 
the cleanup.
    Number two, the fact that we have a responsibility to work 
with the community so that these resources that we are turning 
into assets as a result of the cleanup enter into the vision of 
the community for their economic future.
    I believe that we have done that at Mound and, in 
particular, I believe that the issues associated with what is 
the vision of the community with respect to these resources 
that we are giving back to them as a result of the cleanup, 
almost serves as a blueprint of the type of requirements as 
well as criteria that we need to have in order to move forward 
with a beneficial reuse of the assets that we are giving back 
to the community.
    Mr. Turner. Thank you so much.
    Thank you, Mr. Chairman.
    Mr. Langevin. I thank the Ranking Member.
    And again, we will go for this series of votes, and we will 
be back shortly to continue the hearing. I thank you. The 
committee stands in recess.
    [Recess.]
    Mr. Langevin. The hearing will now come to order. I thank 
the witnesses for your patience.
    And Mr. Heinrich of New Mexico is now recognized for five 
minutes.
    Mr. Heinrich. Thank you, Mr. Chairman.
    And thank you all for being here today.
    I will start out with you, Secretary D'Agostino, and 
preface my comments with what the Perry-Schlesinger report said 
about America's strategic posture when it pointed out the need 
to formally designate our nuclear weapons labs as national 
security laboratories based on their unparalleled R&D 
capabilities and expertise in science and technology.
    I believe the vast amount of work for others done at the 
labs, especially at some of the labs, is really a testament to 
the recognition by other agencies, like the Intelligence 
Community, the Department of Defense, the Department of 
Homeland Security, that the labs possess state-of-the-art 
resources and must continue to be robustly funded to meet new 
and existing challenges.
    Among the many areas in the fiscal year 2011 NNSA budget 
that I am pleased with is the new account, the Science, 
Technology, and Engineering Capability, or STEC program, which 
is funded at $20 million in fiscal year 2011. I want to ask if 
you can explain specifically what this funding will allow our 
labs to accomplish, and how do you envision this program 
operating in the out-years?
    Secretary D'Agostino. Thank you, Mr. Heinrich, absolutely.
    We started this line, frankly, following--there was a $30 
million supplemental in prior years to focus on maintaining a 
capability, particularly focus on the intelligence area. 
Because as you know, sir, these scientists and engineers at our 
laboratories, their expertise that we have fostered over 
decades in supporting the nuclear deterrent is exactly the 
exact same expertise that is needed to assess what other 
countries are doing, what other non-state actors might be 
doing. And we appreciate the supplemental in, I think it was 
the 2009 supplemental, of $30 million.
    So this request in fiscal year 2011 is essentially an 
extension of that, as item one. But actually looking for 
opportunities to expand the types of work for others, I call 
them, strategic partnership agreements with other Federal 
agencies.
    I can give you some examples. One is we have an agreement 
with the Defense Department called the Joint Munitions 
Agreement, which is focused on high explosives. It is work that 
is done at Sandia, Los Alamos, and Livermore, and working with 
the Defense Department together, they set some resources aside 
and we set some resources aside to do that. That is one area.
    Another area is, again, with the Intelligence Community, to 
continue on that partnership with the Intelligence Community. 
And we met with Director Denny Blair a number of times. 
Secretary Chu and I have met with Director Blair so that we are 
working together kind of on that front.
    And finally, the third area is in the nuclear 
counterterrorism space with the Defense Threat Reduction 
Agency. So it will be some combination of work, nuclear 
counterterrorism, intelligence and, possibly, work with the 
Department of Homeland Security in the aviation security arena 
to address challenges that we face in aviation security and to 
make sure that we understand that.
    The key for us, ultimately, is to try to align within the 
Federal Government what we know other departments are going to 
need from us strategically in S&T space, see where they cross 
the Department of Energy's needs, and then use those resources 
to operate where those two circles overlap. And there is some 
great opportunity there, and we are excited about this line as 
well.
    Mr. Heinrich. Excellent. I don't need to rehash with you 
the reasons why NNSA was created by Congress in 1999. But among 
them was an effort to provide a level of autonomy that would 
allow for flexibility and operation within the labs. Do you 
feel that the NNSA is beginning to achieve the level the 
autonomy that I believe the original NNSA act intended?
    Secretary D'Agostino. Well, it is hard--to go back to the 
original intentions. I would look at it--there has been an 
evolution, at least from what I have seen from my perch within 
the Department. We have been able to achieve significant 
autonomy in the area of human capital management, and it has 
allowed my Director of Management, Mike Kane, who is now 
working for the Secretary directly in this area. He did such a 
great job in the NNSA. The Secretary said, `I need that 
capability to help me in the rest of the Department,' so he has 
moved over to help there. But human capital management, in the 
procurement area, it has allowed us to be much quicker in 
responding to procurements. We are a bit of a smaller 
organization, and it has allowed us to move forward there.
    As Administrator, I have certain authorities that the NNSA 
act provided me, with respect to accepting or not accepting 
what I would say consensus-based directives that have no 
applicability, necessarily, to the kind of work that we do. I 
haven't used that a lot but, most recently, we have been able 
to look at trying to drive reform and taking a look at those 
orders. Chairman Winokur described some of this earlier, and we 
are going to be working closely with the Board on these things.
    But I believe it has allowed us to move forward fairly 
aggressively under the rubric of the Administrator. I am 
satisfied, quite satisfied, with the way that we are working 
within the Department, and the flexibility I have.
    Mr. Heinrich. Thank you.
    Mr. Chairman.
    Mr. Langevin. I thank the gentleman.
    The ranking member is recognized for five minutes.
    Mr. Turner. Thank you, Mr. Chairman.
    NNSA's budget request contains an almost 40-percent 
reduction in funding for weapons dismantlement and disposition 
from the fiscal year 2010 level. In light of the significant 
backlog of retired systems in storage, could you explain why 
NNSA is reducing funding for dismantlement activities by such a 
significant percentage in just one fiscal year?
    Secretary D'Agostino. Absolutely. There are a couple of 
reasons, and I will line them up. But it is a combination of 
events. One is, we did have a plus-up increase in fiscal year 
2010 of about $12 million. That doesn't explain the whole 
amount, but there was a specific increase.
    The second increase why we had more money in fiscal year 
2010 than we think we need for fiscal year 2011 is the safety 
and authorization basis work we needed to do our most complex 
weapons systems dismantlement. Work on the W-84, the B-53, for 
example, particularly the 53, is taking a long time. And so we 
feel, by the time fiscal year 2010 is done, we will have 
finished the authorization basis work, the tooling, the methods 
and approaches needed to take apart that warhead. By fiscal 
year 2011, by the time 2011 starts, we will be in the business 
of actually taking apart that warhead in and of itself.
    And the third piece of the difference is the--we had a 
fairly big ramp-up in fiscal year 2009 and fiscal year 2010 to 
make a concerted effort to dismantle what we call canned 
subassemblies or CSAs or secondaries of warheads. This happens 
in Y-12, and Y-12 undertook a very big push to work off their 
backlog of the CSAs. In fiscal year 2011, it goes back to what 
our normal rate was that we submitted in our classified report.
    So it is a combination of those three particular things. 
So, right now, what we have essentially are the tools and the 
authorization basis process we feel we are going to get done by 
the time fiscal year 2011 starts. Now it is a matter of 
cranking out the dismantlement activities themselves.
    One thing I might add if I could, each type of warhead is 
different from a dismantlement standpoint. Some warheads may 
take only two or three shift works of work to take apart while 
another warhead may take a full month to do. There are a lot of 
questions that say, well, that means you are not taking apart 
as many warheads. And it is very difficult to say, you know, a 
W-79 is the same thing as a B-53 is the same thing as a W-76. 
They all have different rates of dismantlement. But the key is 
not to take them apart fast, but to take them apart safely, and 
that is job one.
    Mr. Turner. I will turn to the issue of security, I am 
always concerned, as I stated in my opening statement, that we 
don't have a margin of error. And I think everyone is very 
dedicated to this issue. But perhaps you guys could speak on 
what steps are NNSA and DOE taking to improve and make more 
consistent the management of protective forces throughout the 
nuclear security complex?
    Secretary D'Agostino. Certainly. From a security 
standpoint, we are taking a number of steps. The first thing 
that we have done--not the first thing, one of the things we 
have done is implemented a process called a Zero-Based Security 
Review. And that is to make sure that the work that we do, the 
way we approach security at one site is consistent from an 
operational and vulnerability assessment standpoint to the 
security work that is done at another site.
    Previously we let each site do their vulnerability 
assessments, and each site had a different approach. And so 
what you ended up with, even though each site had the same 
design basis threat, their approach to security was a little 
bit different. It was all fine, but it was a different 
approach. And so we had some inefficiencies there. So the Zero-
Based Security Review is actually going to walk us through 
consistency from a vulnerability assessment standpoint.
    The other things we are doing is we are driving commonality 
in equipment purchases, specifically armor and armored vehicles 
and the like, the weapons that the security forces use, driving 
commonality there and commonality in training. We learned this, 
I would say, the hard way in some respects, where we had a 
strike at one of our sites, and we brought in security forces 
from other sites. And we spent a significant amount of time 
training the security forces from the other sites on the 
different protocols at this one particular site. So now what we 
are doing is pushing for commonality in uniforms, training, 
equipment purchases, weapons, and that drives efficiency into 
the enterprise.
    Mr. Turner. Thank you, Mr. Chairman.
    Mr. Langevin. I thank the ranking member. Mr. Larsen is now 
recognized for five minutes.
    Mr. Larsen. Thank you, Mr. Chairman.
    Normally I would make some comments with regards to 
Environmental Management, but talking with folks from the state 
and the delegation in regards to Hanford, generally things seem 
to be moving along fairly quickly. I would just make a note 
that the--I should say, fairly well, never quickly at Hanford. 
Fairly well.
    But generally, I will just make a note that the work being 
done at places like Hanford and the cleanup is a legacy that we 
do need to move forward on. I think last year I called it the 
America's ultimate toxic asset in the throes of debate here in 
the committee when they were looking at cutting the EM budget. 
We managed to restore that. And that is great, and I hope we 
learned a lesson about the need for a robust EM budget, not 
just for Hanford but, obviously, for other sites around the 
country.
    Chairman Winokur, I talked to you a little bit ahead of 
time about this question. I wanted to have you prepared. I 
visited Y-12 last year with NNSA folks. And I wanted to chat 
with you about, as they shrink the footprint, what kinds of 
steps are being done to continue to try to maintain the safety 
of the workplace, especially in 9212, given the age of it? So 
how is that working out, and what do you foresee in terms of 
cost being part of that process? What are your folks looking at 
with regards to that?
    Dr. Winokur. As I mentioned before, we characterize the 
9212 facility as an unsound facility, and we are in a situation 
right now where we have this unsound facility, and eventually 
we are going to build the Uranium Processing Facility so there 
is this gap, this transitionary period. And the Board is 
working closely with NNSA and the site, Y-12, to make sure that 
we understand the risks that we are taking, which eventually it 
is DOE's decision to continue operations there, not the 
Board's. But we want to carefully understand the risks 
associated with operating that facility, which is extremely 
important.
    And right now, at that facility, improvements are being 
made to reduce the risks. The most important way to do it is to 
reduce the material at risk, and they have done a pretty good 
job at that. They have reduced the amount of uranium in safe 
bottles. And they have other initiatives to improve the 
electrical systems, ventilation systems, fire suppression at 
the site. So we do have an active program in place. And I think 
eventually there is a line item that is coming in to make those 
additional improvements at that site.
    So we are in this situation where the Board is really 
reviewing the safety of that facility on a yearly basis to 
ensure itself that that plant should continue to operate. And I 
can't guarantee you that it will make the complete 
transitionary period between its existence today and when UPF 
comes on line, except to say that the board strongly supports 
the Uranium Processing Facility because it will really 
represent a major improvement at the facility and at the site.
    Mr. Larsen. Thanks, I want to give Secretary D'Agostino an 
opportunity to respond to that if he could.
    As well, I want to ask you to shift a little bit here to 
the Navy nuclear enterprise and discuss the Ohio-class 
replacement reactor in your testimony. Obviously, in the Navy 
budget, in about 2019, we are going to see, if in fact things 
go on time, the Ohio-class replacement come on, and we have to 
start spending real money for the replacement. And that is 
going to potentially, all things being equal, squeeze out other 
shipbuilding requirements unless we figure out that problem.
    Do you have a similar--are we going to see a similar 
balloon in the Navy nuclear enterprise budget as far as the 
development of the reactor for the replacement? If you answer 
that first, and then we can return to the question about Y-12.
    Secretary D'Agostino. Certainly. The plan we have right now 
for the next five years is, as you may be aware, is to do the 
core design, development, start testing some of these fuel 
elements in the prototype refurbishment that is happening 
around the 2017 timeframe. So what we are going to see is a 
ramp-up in the work that happens in the Naval Reactors budget. 
The next five years is pretty well understood. We understand 
where that is going. The year 2016 as well, we have a pretty 
good understanding of where that is going.
    It will likely involve continuing increases in resources. 
Whether there is a discontinuity, it would be hard for me to 
say. I would like to take that one for the record and get back 
to you on that so that you will have the actual data that we 
expect in the out-years.
    [The information referred to was not available at the time 
of printing.]
    Secretary D'Agostino. But clearly, the money that we have 
right now over the next five years is what we feel is necessary 
to do the development of the core and to be able to start 
testing of those components. And we are already doing the 
material testing and the radiation testing as well.
    On the Y-12 part of your question, I agree with the 
Chairman. We have a facility that, you know, requires a lot of 
attention. We have compiled a very long list of things that, 
given unlimited resources, we would like to fix. But we don't 
have unlimited resources, so we have prioritized that work to 
things that have to happen most expeditiously to allow us to 
operate that facility for the next 10 years or so while we 
continue to work with the Board, certainly, early on to get 
that design just right for the UPF and transition out.
    So, clearly, there is always the tension of, a dollar I 
spend on the 9212 is a dollar less I can spend on the Uranium 
Processing Facility. But the most important thing is to do what 
we need to do to ensure that things that have the highest risk 
are taken care of in 9212. Because the Nation is going to rely 
on that facility for the next 10 years, and so it is fairly 
critical work.
    I believe every year we are going to be back and forth with 
the Board and reexamining those risks because it is a dynamic 
situation. Something may come up. Heavy rain, what have you. We 
will make adjustments to that balancing list so we have this 
MMR project, material risk reduction project, to do that.
    Mr. Larsen. Thank you.
    Thank you, Mr. Chairman.
    Mr. Langevin. I thank the gentleman.
    And before we go to Mr. Heinrich for one last question--he 
had one additional question that he wanted to ask--I thought, 
Chairman Winokur, I understand that some of the members of the 
Defense Nuclear Facility Safety Board are here with us, and I 
thought this would be a nice opportunity if you would introduce 
them and say a word or two if possible about each.
    Dr. Winokur. Thank you.
    Let me first introduce Dr. John Mansfield, our resident 
genius on the board.
    Mr. Langevin. Always good to have a resident genius.
    Dr. Winokur. And I would like to introduce Mr. Joseph 
Bader, who has a tremendous amount of experience in industry 
and quite expert in project management.
    Mr. Langevin. Thank you for being here.
    Dr. Winokur. And we have Mr. Larry Brown, who is a former 
Naval officer, a captain. He is used to running ships, and he 
is trying to apply the same to the Board.
    And we actually have a new member who was confirmed last 
week, and that is Ms. Jessie Roberson. And she will probably 
report to duty in a couple of weeks, and her previous 
experience was she was actually a member of the Board for 
approximately one year and served in the same position as 
Secretary Triay. And she has industrial experience.
    Mr. Langevin. Outstanding. Thank you for that.
    Gentlemen, thank you for the work that you are doing, and 
we appreciate your outstanding work for the country. Thank you.
    With that, I will turn to Mr. Heinrich for a last question.
    Mr. Heinrich. Would you mind if it is two?
    Mr. Langevin. Don't push it, Heinrich.
    Mr. Heinrich. Okay. I'll pick one. Secretary D'Agostino, I 
am very pleased at the direction in funding this year at Sandia 
in terms of RTBF, the Readiness In Technical Base & Facilities, 
the direction that it is heading in fiscal year 2011, although 
it is significantly lower than the levels we saw just a couple 
of years ago in fiscal year 2009. And I am particularly 
concerned about the ramifications of that over time with regard 
to Microsystems and Engineering Sciences Applications (MESA), 
the Major Environmental Test Facilities, and the need to not 
fall behind in terms of the recapitalization of that facility 
to make sure that as the fabrication facility stays up-to-date 
with industry standards and is able to fully support the next 
generation of microelectronics for our stockpile systems. Do 
you share some of those concerns?
    Secretary D'Agostino. I do share--I would say, generally, I 
share concerns on this balance between, you know, making sure 
we don't fall behind on our recapitalization efforts and 
maintaining facilities, particularly as we bring new facilities 
online.
    General Harencak, who is here with me, actually, runs 
defense programs. He and I have talked about deferred 
maintenance quite a bit. We have talked about the fact that we 
have had great success, frankly, in our program in 
recapitalization resources and in the science resources and in 
the Directed Stockpile Work (DSW) resources, that sometimes we 
have to make sure--not sometimes, we always have to make sure 
that we don't forget just taking care of business on a day-to-
day basis with our current facilities.
    So he actively looks at that, and he is going to be getting 
back to me in the not-too-distant future, and we are going to 
talk about, what do we need to do to make sure, particularly 
since we are in the throes of developing our fiscal year 2012 
program and budget right now, on how do we make sure that we 
don't find ourselves in a situation 10 years from now where we 
say, well, if I had just taken care of this facility, we 
wouldn't be in the position that we are in. So that is a 
constant concern of mine.
    Mr. Heinrich. Mr. Chairman.
    Do I get the full five minutes? Okay. Last question.
    Secretary Triay, you have heard this one before. But I 
wanted to ask, what are you doing to meet DOE's responsibility, 
not just to clean up these legacy sites, but to assess and 
restore the natural resources that have been damaged at DOE 
sites around the country? And just to provide some context for 
folks. That is a statutory responsibility and one that is, I 
think, more easily met when you do the two together as opposed 
to in series.
    Secretary Triay. Thank you very much for that question. I 
recently met with Secretary Ron Curry just on this particular 
question. And we thank you for your leadership throughout this 
process.
    I am happy to report that we have made a decision on doing 
the assessment for damages and that we are going to be in the 
process of issuing the request for proposal, the system is 
going to be issuing the request for proposal.
    And we will provide the resources for that assessment. In 
addition to that, as a matter of policy, you and I have 
discussed, in these venues plus one-on-one, the wisdom of not 
waiting until after all of the cleanup is completed to start 
restoring and addressing the damages.
    So we are committed to doing that simultaneously--the 
cleanup as well as the damages, because at the end of the day, 
we think that that is more cost-effective, plus much more 
responsible to the concerns that have been expressed at places 
like Los Alamos.
    We are committed to working with you as well as Secretary 
Curry on pressing forward. And we believe that the State has 
actually shown a tremendous amount of leadership, and we want 
to ensure that we take full advantage of that leadership shown 
by New Mexico.
    Mr. Heinrich. I thank you for your progress on that front. 
I really do.
    Mr. Langevin. I thank the gentleman.
    And I am going to take the prerogative of the chair to ask 
one last question. But before I do, Mr. Larsen had asked for 
some time, for a few minutes.
    Mr. Larsen. Thank you, Mr. Chairman.
    Just a few minutes. Secretary D'Agostino, I wanted to let 
you know that I will be following up with you and your office 
with regards to the framework for a memorandum of agreement for 
interactions between NNSA and the broader national security 
community, and some of the suggestions that I have been hearing 
from some folks. So I will follow up with you and your staff on 
that.
    Secretary D'Agostino. Yes, sir.
    Mr. Larsen. Thank you.
    Mr. Langevin. I thank the gentleman.
    And lastly, for Mr. D'Agostino, last year the JASON 
scientific panel's review of NNSA Life Extension Program found 
that the Stockpile Surveillance Program is becoming inadequate. 
They concluded that, ``continued success of stockpile 
stewardship requires implementation of a revised surveillance 
program.''
    So my question is, has the NNSA revised the surveillance 
program in ways that will ensure the continued success of the 
Stockpile Stewardship Program? And if so, can you describe them 
to the committee?
    Secretary D'Agostino. The answer is, yes, we have revised 
it. And the fiscal year 2011 request will allow us to fully 
implement those plans. And let me describe the plans if I 
could.
    We have made a concerted shift not to just put more money 
into what we call the Enhanced Surveillance line, which is 
developing tools for future types of surveillance that we can 
do, but actually taking apart warheads and collecting a lot of 
data out of those particular warheads. So that is the 
additional resources, about $55 million more than we had 
previously in the fiscal year 2011 request, will allow us to 
take apart that full sweep of warheads that we were originally 
planning on doing.
    Another element of the revision of the surveillance program 
is to fully exploit the data that we do have. In many respects, 
in the past, what was done, it was just of a rote, take apart X 
number of units per years, gather this information and focus it 
that way. What we want to do is actually factor in--start 
focusing where we are looking based on the information we get 
out of what our codes tell us, what our predictions tell us we 
should be looking for. That way it is a bit more of a focused 
surveillance than just kind of a broad surveillance across the 
board.
    The final element of surveillance is trying to take 
advantage of dismantling nuclear warheads. Obviously, we have 
an active program of dismantling nuclear warheads, and there 
are opportunities to fully exploit all of that information that 
comes out of that, in addition to what we would regularly call 
a normal surveillance activity, where we take the warhead apart 
and then put it back together again.
    So this fiscal year 2011, fiscal year 2012, fiscal year 
2013 program that we have in front of us will address, in my 
opinion and in the opinion of our experts in defense programs, 
the core of what the JASONs were talking about. But the key, 
again, will be sustaining this over time, sustaining that level 
of focus. Let's not let the resources drift away from the 
surveillance area like we have done in the past, as we tried to 
balance things as they got smaller and smaller. So sustaining 
it over time will be important.
    Mr. Langevin. I agree, and I hope that you will allow us to 
work with you and make sure that you have the tools and 
resources that you need to continue your work and also the 
work, particularly, in the surveillance program.
    Secretary D'Agostino. Yes, Mr. Chairman. It would be an 
honor to do that.
    Mr. Langevin. Lastly, I want to thank you publicly for 
accompanying me to my first trip to the labs at Sandia and Los 
Alamos. It was an eye-opening event and time well spent.
    And I deeply appreciate all the work that you are doing 
there and all the work of the folks at the labs. It is 
outstanding work and an important national asset, and thank 
you.
    Secretary D'Agostino. Thank you, sir.
    Mr. Langevin. If there is nothing else, with that, I want 
to thank our witnesses for their testimony today. As always, it 
has been very helpful and enlightening.
    And the members may have additional questions that they 
will submit for the record, and I would ask that you respond to 
those expeditiously in writing.
    With that, thank you again, and the committee stands 
adjourned.
    [Whereupon, at 4:00 p.m., the subcommittee was adjourned.]


=======================================================================




                            A P P E N D I X

                             March 25, 2010

=======================================================================




=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 25, 2010

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T8229.001
    
    [GRAPHIC] [TIFF OMITTED] T8229.002
    
    [GRAPHIC] [TIFF OMITTED] T8229.003
    
    [GRAPHIC] [TIFF OMITTED] T8229.004
    
    [GRAPHIC] [TIFF OMITTED] T8229.005
    
    [GRAPHIC] [TIFF OMITTED] T8229.006
    
    [GRAPHIC] [TIFF OMITTED] T8229.007
    
    [GRAPHIC] [TIFF OMITTED] T8229.008
    
    [GRAPHIC] [TIFF OMITTED] T8229.009
    
    [GRAPHIC] [TIFF OMITTED] T8229.010
    
    [GRAPHIC] [TIFF OMITTED] T8229.011
    
    [GRAPHIC] [TIFF OMITTED] T8229.012
    
    [GRAPHIC] [TIFF OMITTED] T8229.013
    
    [GRAPHIC] [TIFF OMITTED] T8229.014
    
    [GRAPHIC] [TIFF OMITTED] T8229.015
    
    [GRAPHIC] [TIFF OMITTED] T8229.016
    
    [GRAPHIC] [TIFF OMITTED] T8229.017
    
    [GRAPHIC] [TIFF OMITTED] T8229.018
    
    [GRAPHIC] [TIFF OMITTED] T8229.019
    
    [GRAPHIC] [TIFF OMITTED] T8229.020
    
    [GRAPHIC] [TIFF OMITTED] T8229.021
    
    [GRAPHIC] [TIFF OMITTED] T8229.022
    
    [GRAPHIC] [TIFF OMITTED] T8229.023
    
    [GRAPHIC] [TIFF OMITTED] T8229.024
    
    [GRAPHIC] [TIFF OMITTED] T8229.025
    
    [GRAPHIC] [TIFF OMITTED] T8229.026
    
    [GRAPHIC] [TIFF OMITTED] T8229.027
    
    [GRAPHIC] [TIFF OMITTED] T8229.028
    
    [GRAPHIC] [TIFF OMITTED] T8229.029
    
    [GRAPHIC] [TIFF OMITTED] T8229.030
    
    [GRAPHIC] [TIFF OMITTED] T8229.031
    
    [GRAPHIC] [TIFF OMITTED] T8229.032
    
    [GRAPHIC] [TIFF OMITTED] T8229.033
    
    [GRAPHIC] [TIFF OMITTED] T8229.034
    
    [GRAPHIC] [TIFF OMITTED] T8229.035
    
    [GRAPHIC] [TIFF OMITTED] T8229.036
    
    [GRAPHIC] [TIFF OMITTED] T8229.037
    
    [GRAPHIC] [TIFF OMITTED] T8229.038
    
    [GRAPHIC] [TIFF OMITTED] T8229.039
    
    [GRAPHIC] [TIFF OMITTED] T8229.040
    
    [GRAPHIC] [TIFF OMITTED] T8229.041
    
    [GRAPHIC] [TIFF OMITTED] T8229.042
    
    [GRAPHIC] [TIFF OMITTED] T8229.043
    
    [GRAPHIC] [TIFF OMITTED] T8229.044
    
    [GRAPHIC] [TIFF OMITTED] T8229.045
    
    [GRAPHIC] [TIFF OMITTED] T8229.046
    
    [GRAPHIC] [TIFF OMITTED] T8229.047
    
    [GRAPHIC] [TIFF OMITTED] T8229.048
    
    [GRAPHIC] [TIFF OMITTED] T8229.049
    
    [GRAPHIC] [TIFF OMITTED] T8229.050
    
    [GRAPHIC] [TIFF OMITTED] T8229.051
    
    [GRAPHIC] [TIFF OMITTED] T8229.052
    
    [GRAPHIC] [TIFF OMITTED] T8229.053
    
    [GRAPHIC] [TIFF OMITTED] T8229.054
    
    [GRAPHIC] [TIFF OMITTED] T8229.055
    
    [GRAPHIC] [TIFF OMITTED] T8229.056
    
    [GRAPHIC] [TIFF OMITTED] T8229.057
    
    [GRAPHIC] [TIFF OMITTED] T8229.058
    
    [GRAPHIC] [TIFF OMITTED] T8229.059
    
    [GRAPHIC] [TIFF OMITTED] T8229.060
    
    [GRAPHIC] [TIFF OMITTED] T8229.061
    
    [GRAPHIC] [TIFF OMITTED] T8229.062
    
    [GRAPHIC] [TIFF OMITTED] T8229.063
    
    [GRAPHIC] [TIFF OMITTED] T8229.064
    
    [GRAPHIC] [TIFF OMITTED] T8229.065
    
    [GRAPHIC] [TIFF OMITTED] T8229.066
    
    [GRAPHIC] [TIFF OMITTED] T8229.067
    
    [GRAPHIC] [TIFF OMITTED] T8229.068
    
    [GRAPHIC] [TIFF OMITTED] T8229.069
    
    [GRAPHIC] [TIFF OMITTED] T8229.070
    
    [GRAPHIC] [TIFF OMITTED] T8229.071
    
    [GRAPHIC] [TIFF OMITTED] T8229.072
    
    [GRAPHIC] [TIFF OMITTED] T8229.073
    
    [GRAPHIC] [TIFF OMITTED] T8229.074
    
    [GRAPHIC] [TIFF OMITTED] T8229.075
    
    [GRAPHIC] [TIFF OMITTED] T8229.076
    
    [GRAPHIC] [TIFF OMITTED] T8229.077
    
    [GRAPHIC] [TIFF OMITTED] T8229.078
    
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 25, 2010

=======================================================================

      
                  QUESTIONS SUBMITTED BY MR. LANGEVIN

    Mr. Langevin. The unclassified report of the JASON panel also 
contained the following conclusion: ``JASON finds no evidence that 
accumulation of changes incurred from aging and LEPs have increased 
risk to certification of today's deployed nuclear warheads.''
    Do you agree with this assessment? Could you provide the committee 
with your perspectives on the issue?
    Secretary D'Agostino. Mr. Chairman, I agree with this finding. Our 
annual assessment process provides me with a rigorous assessment of the 
status of our stockpile. The accumulations of small changes that are 
inherent in component aging and refurbishment of aging components, take 
our warheads further from the designs whose safety and reliability were 
certified in the era when nuclear tests were conducted. What the JASON 
captured in this finding, and reinforced in their report and 
recommendations, is that the success of Stockpile Stewardship has 
allowed us to mitigate the risk due to these changes. As we make 
changes, we investigate birth defects and aging issues through 
surveillance. We then drive our science and engineering teams at the 
laboratories to understand the impacts so we can understand the 
consequences, and then suggest and implement solutions. Throughout this 
process, which is the essence of stewardship, it is my goal to choose 
the options that decrease our future risks. This includes maintaining a 
full suite of options for warhead life extensions that help enable U.S. 
nuclear policy.
    Mr. Langevin. Finally, the JASON panel found that: ``All options 
for extending the life of the nuclear weapons stockpile rely on the 
continuing maintenance and renewal of expertise and capabilities in 
science, technology, engineering, and production unique to the nuclear 
weapons program.'' The panel went on to express its concern that ``this 
expertise is threatened by lack of program stability, perceived lack of 
mission importance, and degradation of the work environment.''
    Do you agree with the conclusions of the JASON panel, and if you 
do, will you describe to the committee how you plan to address the 
concerns about program stability, perceived lack of mission importance 
and the work environment?
    Secretary D'Agostino. Mr. Chairman, I agree with JASON's 
recognition of our critical skills needs. We are in the middle of a 
fairly long transition from a time early in Stockpile Stewardship when 
our ranks were replete with seasoned experts firmly grounded in testing 
the as-designed stockpile to one likely in the next decade where we no 
longer have any such expertise, including our Laboratory Directors. 
Today's annual assessment of the stockpile is a mix of expert judgment 
guided by a much better informed scientific understanding than we ever 
had in the past. Our efforts require us to push strongly into the 
science, technology, engineering, and manufacturing unique to the 
nuclear weapons program. I believe it is possible to preserve this base 
of human capital, by exercising it routinely on important problems of 
nuclear design, development and production. Additionally, I have been 
working to transition from a nuclear weapons complex to a national 
security enterprise because I believe that for my laboratories to 
remain vital in the skills of the nuclear mission, we need to think 
more broadly of the mission and what it will take to attract scientists 
and engineers into the complex in a time when the lure of working on 
the U.S. nuclear arsenal is diminishing.
    Mr. Langevin. Would ratification of the Comprehensive Test Ban 
Treaty change any current plans for the Stockpile Stewardship Program? 
If so, please describe how.
    Secretary D'Agostino. Mr. Chairman, the Stockpile Stewardship 
Program is designed and executed to maintain certification of the 
nuclear weapons stockpile without underground testing. Under the 
program, experiments are conducted to assess the current state of the 
stockpile and the results are validated against data collected from the 
underground nuclear tests conducted prior to the end of testing in 
1992. We have successfully mitigated the risk to the stockpile of 
accumulating changes, and we currently do not see obstacles that would 
divert us from this path in the future. In order to execute the 
program, we will need to recapitalize many of our facilities and sites, 
as we have proposed. If we can maintain program stability into the 
future, then we can ensure that the scientists and engineers continue 
to work to mitigate the risks to the U.S. stockpile without having to 
resort to our previous model of nuclear testing as the ultimate arbiter 
of these decisions.
    Mr. Langevin. One of the most significant initiatives contained in 
the FY 2011 budget is funding for the design of both the Chemistry and 
Metallurgy Research Replacement (CMRR) facility at Los Alamos and the 
Uranium Processing Facility (UPF) at Oak Ridge Y-12.
    To what extent are the design specifications for these major 
infrastructure projects dependent on the size of the nuclear weapons 
stockpile?
    Secretary D'Agostino. Both facilities are sized at the minimum 
capacity and capability needed to support the current stockpile and 
planned stockpile reductions announced by the Administration. CMRR and 
UPF design specifications are based on the production work necessary to 
support the stockpile objectives in the Nuclear Posture Review, and the 
core capabilities to support a variety of National Security Enterprise 
missions that require plutonium and highly enriched uranium. The design 
of both CMRR and UPF are largely insensitive to reductions in stockpile 
levels, with capacity-related features such as the quantity and type of 
equipment and floor space sized to the minimum necessary to provide 
core capabilities. Future reductions in stockpile size would not allow 
for substantial reduction in the size or capability of either facility.
    Mr. Langevin. How confident are you that the NNSA's budget can 
accommodate construction of these two major projects concurrently in 
the out-years without affecting other major elements of the stockpile 
stewardship program?
    Secretary D'Agostino. Assuming the President's FY 2011 request is 
enacted into law, NNSA is fully committed to completing construction in 
2020 and transitioning to full operations for CMRR and UPF by 2022. 
Construction resource requirements for CMRR and UPF will extend 
throughout this decade. The FY 2011 President's Budget establishes an 
adequate level of funding to continue design and prepare for the start 
of construction activities for both projects, while providing 
sufficient resources for the other major elements of the stockpile 
stewardship program. Budget requirements in the out-years for these two 
facilities will be identified after we have established the design and 
cost baselines by the end of FY2013.
    Mr. Langevin. The Facilities and Infrastructure Recapitalization 
Program (FIRP) is scheduled to sunset in 2013. However, the backlog of 
deferred maintenance in the nuclear weapons complex has not been 
eliminated. FIRP was originally designed to reduce deferred maintenance 
in the NNSA to industry standards by 2011, but annual funding levels 
have fallen short of requirements.
    Does the FY 2010 budget for NNSA reduce the overall backlog of 
deferred maintenance in the weapons complex? If not, should the FIRP 
program be extended?
    Secretary D'Agostino. The Fiscal Year (FY) 2010 budget for the NNSA 
helps to stabilize, rather than reduce the overall backlog of deferred 
maintenance, which has continued to grow in recent years. The FY 2010 
Facilities and Infrastructure Recapitalization Program (FIRP) deferred 
maintenance reduction projects are funded at $94 million, which is 
approximately 38% of the projected $250 million needed annually to 
reduce the backlog. In order to maintain Mission Critical facilities as 
a priority, other facilities have been operating under worsening 
conditions and increasing amounts of deferred maintenance.
    With regard to the program's duration, the FIRP end date is FY 2013 
as legislated in the National Defense Authorization Act for FY 2007. 
The NNSA understands that at the conclusion of FIRP, the logical 
program to receive dedicated out-year funding in support of continued 
deferred maintenance reduction is the Institutional Site Support 
program within Defense Programs Readiness in Technical Base and 
Facilities.
    Mr. Langevin. How much funding would be required on an annual basis 
over the five years of the Future Years Nuclear Security Plan (FYNSP) 
to reduce the backlog of deferred maintenance to private industry 
standards?
    Secretary D'Agostino. Our experience demonstrates that the 
Stockpile Stewardship Program mission was most efficiently supported 
when FIRP budgets were provided on the order of $200 to $250 million 
annually. This includes funding of both recapitalization projects and 
disposition projects targeted at deferred maintenance reduction. 
However, we need to continually evaluate the proper funding for 
deferred maintenance as the enterprise undergoes changes.
    Mr. Langevin. NNSA's budget request contains an almost 40-percent 
reduction in funding for weapons dismantlement and disposition from the 
FY 2010 level.
    In light of the significant backlog of retired systems in storage, 
please explain why NNSA is reducing funding for dismantlement 
activities by such a significant percentage in one fiscal year?
    Secretary D'Agostino. The FY 2011 request of $58M brings us back in 
line with our dismantlement funding profile and is sufficient to meet 
FY 2011 requirements. In recent years, NNSA has met or exceeded its 
planned dismantlement rates due to investments in efficiencies and 
additional funding from Congress. FY 2010 saw a large increase of 
$43.4M in the dismantlement budget (from $52.7M in FY 2009 to $96.1M in 
FY 2010--an increase of more than 82%) which is being used for enabling 
technologies such as material disposition, efficiency improvements, and 
completing the nuclear explosive safety bases for the W84 and B53 
dismantlements. These activities will allow NNSA to maintain our 
established dismantlement rate while adding two additional weapons to 
the dismantlement stream.
    The investments in efficiencies and the additional funding have 
provided NNSA with flexibility in adjusting resource commitments in 
balance with Life Extension Programs and surveillance activities in the 
near term, and we remain committed to dismantle all currently retired 
weapons by 2022.
    Mr. Langevin. What are NNSA's nonproliferation priorities? What are 
the primary areas of progress, and the main challenges facing NNSA 
nonproliferation efforts?
    Secretary D'Agostino. While the various nonproliferation programs 
at NNSA have developed a variety of methodologies over the years for 
prioritizing the threat reduction efforts within their programs' 
purview, DNN also makes use of a risk assessment methodology to 
prioritize and evaluate trade-offs across the full range of 
nonproliferation programs that would otherwise defy easy comparisons. 
These risk trade-offs are used to inform decisionmaking, and the full 
scope of national security demands is evaluated within available 
resources throughout the Planning, Programming, Budgeting, and 
Evaluation (PPBE) process.
    Some fundamental principles underlie the DNN risk assessment 
methodology. First, even with the hypothetical situation of unlimited 
resources, it is not possible to completely eliminate all proliferation 
risk. Second, not all threats are equally probable or consequential. 
Therefore, the DNN program management methodology reflects the view 
that it is possible to manage and minimize the many variable risks by 
addressing the most credible and most serious threats before attempting 
to mitigate lesser threats.
    To implement this approach, NNSA prioritizes activities considered 
part of the first line of defense against nuclear terrorism and 
proliferation: funding for efforts to secure special nuclear materials 
at their site of origin, as it becomes progressively more difficult to 
detect and secure such material once it has been moved; and material 
disposition to reduce the total amount of material that requires 
security. NNSA then focuses down the risk continuum on second line of 
defense activities to detect materials in transit, especially across 
international borders and other transit sites, to reduce the 
availability of the technologies and technical expertise to create 
these materials, and securing radiological source materials. The DNN 
activities to implement these objectives directly contribute to the 
President's nuclear security and nonproliferation agenda as outlined in 
his April 2009 speech in Prague, Czech Republic, and constitute DNN's 
highest priorities.
    In terms of progress, working with our Russian partners, DNN has 
made remarkable achievements. These include: the verifiable 
downblending of over 380 MT of Russian weapons-origin highly enriched 
uranium (HEU) into LEU fuel for use in U.S. power plants; the return of 
over 1,239 kg of Russian-origin HEU; the completion of security 
upgrades at 93% of Russian nuclear sites of concern; and the shutdown 
of Russia's last three weapons-grade plutonium-producing reactors, the 
last of which was shut down in April 2010. Additionally, we are taking 
concrete steps to dispose of at least 68 MT total (34 MT each) of U.S. 
and Russian weapons-grade plutonium.
    However, in order to implement the President's Prague speech 
objectives--especially his call to secure all vulnerable nuclear 
material across the globe within four years--DNN will require expanding 
our security cooperation with Russia and other key countries, pursuing 
new partnerships to secure nuclear materials, and strengthening nuclear 
security standards, practices, and international safeguards. Remaining 
DNN priorities and challenges include securing these new bilateral and 
multilateral partnerships and international consensus needed to achieve 
this four-year goal.
    Mr. Langevin. Are there any areas where NNSA could do more to 
accelerate and strengthen its nonproliferation programs if it had more 
funding, or does the FY2011 budget request reflect all current needs 
and capabilities?
    Secretary D'Agostino. Last year in Prague, the President announced 
a new American effort, working with our international partners, to 
secure vulnerable nuclear materials around the world within four years. 
The Department will play a key role in these efforts. Implementing this 
plan will require expanding security cooperation with Russia and other 
key countries, pursuing new partnerships to secure nuclear materials, 
and strengthening nuclear security standards, practices, and 
international safeguards.
    Our FY 2011 budget request fully funds early efforts to support the 
President's historic nuclear security agenda, as a first step in 
meeting this multiyear initiative. Among other priorities in this area, 
the FY2011 budget provides for the acceleration and expansion of threat 
reduction efforts, including beginning efforts to remove over 1,650 
kilograms; converting an additional 7 research reactors to the use of 
low enriched uranium fuel; pursuing additional nuclear security 
upgrades at 19 Russian sites; and expanding nuclear security 
cooperation to new countries outside of Russia and states of the former 
Soviet Union. Funding and personnel resources to fully implement these 
Administration commitments are requested in the FY2011 President's 
Budget and are reflected in the out-year funding for these programs.
    Mr. Langevin. NNSA plans for fissile materials disposition have 
slowed in recent years, first as a liability dispute between the U.S. 
and Russia delayed work, and later as Congress expressed reservations 
about proceeding with construction of the U.S. MOX Fuel Fabrication 
Facility at the Savannah River Site. Moreover, the FY 2008 Consolidated 
Appropriations Act reduced funding for the MOX facility and transferred 
funding for the facility from NNSA's Defense Nuclear Nonproliferation 
program to the Office of Nuclear Energy. However, the FY 2011 budget 
request restores funding for the MOX facility and reflects a transfer 
of all funding for the facility back to Defense Nuclear 
Nonproliferation.
    What is the current status of construction of the MOX facility and 
what are the plans going forward, including the timeline for 
completion?
    Secretary D'Agostino. As of May 2010, the MOX Fuel Fabrication 
Facility project is on schedule and within budget, with 43% complete 
overall (design, procurement, construction, testing). Construction 
activities are 22% complete. To date, over 72,000 cubic yards of 
concrete and 13,000 tons of reinforcing steel have been installed in 
the main 500,000 square foot MOX Process Building structure. 
Installation of coatings, process tanks and process piping are also 
ongoing in the main MOX Process Building. Additionally, 10 of the 16 
auxiliary buildings have been completed and are in use to support the 
MOX construction effort. Besides facility construction, large amounts 
of engineered process equipment are being procured and are being 
fabricated by suppliers.
    The MOX Process Building structure is scheduled to be completed in 
2011 with installation of process equipment continuing until 2014. Cold 
system testing is scheduled to begin in 2012 and continue into 2016. 
Construction of the MOX project is scheduled to be completed in October 
2016, at which point nuclear materials, hot system testing and 
manufacture of MOX fuel are scheduled to begin.
    Mr. Langevin. What is the status of the Russian Surplus Fissile 
Materials Disposition program, and is the program moving forward in a 
manner that is consistent with the program's nonproliferation 
objectives?
    Secretary D'Agostino. On April 13, 2010, the United States and 
Russia signed a Protocol to amend the Plutonium Management and 
Disposition Agreement (PMDA) to reflect Russia's revised plutonium 
disposition program. The amended PMDA commits Russia to dispose of 34 
metric tons of weapon-grade plutonium under conditions that make the 
Russian disposition program consistent with U.S. nonproliferation 
objectives. Russia's revised program is based on irradiating surplus 
weapon-grade plutonium in Russia's fast reactors operating under 
certain nonproliferation conditions including removal of the weapon-
grade plutonium producing ``blanket'' in the BN-600 reactor, redesign 
of the BN-800 reactor from a plutonium breeder to a plutonium burner, 
and implementation of monitoring and inspections to verify that Russia 
is fulfilling the terms of the amended Agreement. Under the amended 
PMDA, both countries expect to start plutonium disposition in 2018 and 
finish disposition in the mid 2030s.
    Mr. Langevin. In recent years, the committee has emphasized its 
strong concern with the use of fast reactors under the Russian Surplus 
Fissile Materials Disposition program and has conveyed its expectation 
that NNSA pursue a disposition path for Russia's surplus weapons-grade 
plutonium which ensures that any reactors used under the program do not 
produce plutonium and include necessary monitoring and inspection 
controls. What is the status of NNSA's efforts in this regard?
    Secretary D'Agostino. Russia's revised disposition program codified 
in the amended PMDA is based on irradiating surplus weapon-grade 
plutonium in Russia's fast reactors operating under certain 
nonproliferation conditions, including removal of the weapon-grade 
plutonium producing ``blanket'' in the BN-600 reactor, redesign of the 
BN-800 reactor from a plutonium breeder to a plutonium burner, and 
implementation of a monitoring and inspections regime to verify that 
Russia is fulfilling the terms of the amended Agreement. In addition, 
the revised PMDA contains strict limits on reprocessing and prohibits 
the plutonium disposed of from ever being used for weapons purposes. We 
expect the above activities to be among those funded by the U.S. $400 
million contribution referenced in the amended PMDA. Meanwhile, Russia 
is spending over $2 billion to implement its revised disposition 
program. A document laying out the key elements of a monitoring and 
inspection (M&I) regime was approved by the two sides in March and 
contact was initiated with the IAEA regarding its role in conducting 
PMDA related M&I activities.
    Mr. Langevin. What is NNSA doing to address issues of limited staff 
capacity, capabilities and resources, which have created challenges for 
implementation of critical nonproliferation programs in past years?
    Secretary D'Agostino. The FY 2011 NNSA Budget Request provides for 
259 FTEs for the Defense Nuclear Nonproliferation program. This 
represents a 22% increase over FY 2009 staffing levels. The increased 
staffing ceiling is commensurate with the increased funding provided 
for nonproliferation programs to ensure that the required Federal 
personnel to plan, manage, and oversee the operations of the Defense 
Nuclear Nonproliferation program are provided.
    In the past several years, NNSA has implemented workforce planning 
and a phased hiring strategy to ensure that appropriate staff resources 
are available by FY 2011 to execute the requested programmatic 
increases. We are working to assure that as attrition occurs, we make 
internal reallocations to target increased personnel support to growing 
mission areas Defense Nuclear Nonproliferation.
    Mr. Langevin. Do you expect any NNSA nonproliferation programs to 
have significant uncosted unobligated balances in FY 2010? If so, 
please describe the factors contributing to such balances. Please also 
describe any progress by NNSA to limit uncosted unobligated balances 
for nonproliferation programs and the rationale, if any, for 
maintaining a certain level of such balances for these programs.
    Secretary D'Agostino. No. The year-end projection of less than 10-
percent uncommitted uncosted balances for the DNN programs is well 
within thresholds for uncosted balances recognized by the Department, 
and the Government Accountability Office, and is a reasonable level to 
ensure continued operations into FY 2011, especially in recognition of 
the expected long-term continuing resolution.
    Because of the nature of the nonproliferation program activity, 
much of it takes place outside of the United States and encompasses 
smaller operating and capital-type projects executed in partnerships 
with foreign governments that are not completed for a number of years 
after initiation. In recognition of this different program execution 
pattern, the Congress and the NNSA agreed a number of years ago on 
semi-annual reporting of uncosted and uncommitted balances for programs 
funded under the DNN appropriation, which is a better metric of the 
progress and funding availability in these programs.
    Uncosted balances generally represent goods and services on order. 
Uncommitted balances are funds not yet placed on contract. For the 
fiscal year ending September 30, 2010, NNSA is projecting uncommitted 
balances of less than 10 percent for the Defense Nuclear 
Nonproliferation (DNN) appropriation. The projected year-end 
uncommitted percentage varies by program, from less than 6 percent for 
the International Nuclear Materials Protection and Cooperation program, 
to approximately 18 percent for the Nonproliferation and International 
Security Program (NIS). Delays in planning activities and technology 
development to support eventual resumption of denuclearization 
activities in the Democratic People's Republic of Korea are 
contributing to slightly higher projected uncommitted balances for this 
program.
    DNN uncommitted balances have been reduced from approximately 15 
percent five years ago to about 11 percent at the end of FY 2009. A 
number of process improvements have been made to help achieve this 
change, including adjustments in contracting methods, oversight 
procedures, and additional analysis during the budget formulation 
process to insure the most efficient and effective use of each dollar.
    Mr. Langevin. Recognizing that the Department is ultimately 
responsible for the solvency of the pension programs maintained for the 
employees of DOE's major contractors, could you provide the committee 
with a description of the fiscal health of these plans?
    Secretary D'Agostino. The rounded funded status for each is listed 
below with our lowest funded status being 84%.




Kansas City Aero                          93%
Kansas City Hourly                        97%
Los Alamos                                104%
Livermore                                 146%
Nevada Test Site                          87%
Pantex Guards                             91%
Pantex MTC                                91%
Pantex Non-Barg                           86%
Sandia PSP                                205%
Sandia RIP                                98%
Y-12 Security                             97%
Nevada Security                           95%
Nevada Security LV                        97%
Y-12                                      94%
Naval Reactors KAPL Salary                85%
Naval Reactors KAPL Hourly                85%
Naval Reactors Bettis                     84%


    Mr. Langevin. What actions are NNSA and DOE taking to address any 
shortfalls in its contractor-managed pension programs?
    Secretary D'Agostino. We engage our contractors on a routine basis 
to ensure our budgets accurately reflect expected plan contributions 
and to understand the investment strategies utilized by our 
contractors. Because, under the terms of our contracts, we are required 
to reimburse contractor pension costs within contractual limits, we 
urge our contractors to focus on decreasing the volatility of required 
annual contributions and cost containment.
    However, reducing pension costs is extremely difficult as the costs 
reflect incurred costs that are impacted by a number of market 
conditions, including the market bond rates used to value liabilities 
to the present. While most NNSA contractors have closed their defined 
benefit pension programs to new entrants and have shifted to defined 
contribution programs for new contractor employees, the cost for 
funding the closed defined benefit pension programs will not decline 
significantly until market conditions improve over an extended period 
of time.
    Pension liabilities are a series of cashflows payable in the future 
that consist of the present value of all future benefit payments 
discounted to the present using required IRS discount rates. Pension 
cost increases result from (1) normal benefit accruals, (2) drops in 
the discount rate, (3) investment losses, and (4) new pension plan 
entrants. Defined benefit programs that continue to allow new entrants 
experience liability growth beyond growth associated with benefit 
accruals and market conditions. Once a plan is closed to new entrants, 
pension costs are largely affected from year to year by market 
conditions.
    The U.S. suffered what amounts to a ``pension perfect storm'' in 
2008 as declines in the stock market reduced asset valuations 
significantly, while reductions in interest rates increased liability 
valuations. Even with the general equity market upswing over the past 
year, the growth in liability valuations has continued to greatly 
surpass the growth in assets, making it difficult to significantly 
improve the funded status of individual plans. Our contractors utilize 
a variety of investment techniques such as liability driven investments 
to minimize the contribution volatility; however, they also choose to 
mitigate their financial burden by balancing this technique with more 
aggressive investment approaches that present the opportunity for 
higher returns. In either case, until market forces provide for relief 
in the valuation of liabilities NNSA contractors will continue to see 
large annual defined-benefit pension contributions. NNSA has a 
centralized Contractor Human Resources group responsible for working 
directly with our contractors to maintain a vigilant review of all 
pension and other benefit costs.
    Mr. Langevin. The Department of Energy received $5.1 billion for 
Defense Environmental Cleanup through the American Recovery and 
Reinvestment Act of 2009. Are you on track implementing the Recovery 
Act projects and funding?
    Secretary Triay. The Recovery Act requires all funding to be 
obligated by the end of FY 2010, and spent within five years of 
obligation. The Office of Environmental Management (EM) established a 
very aggressive goal of spending the majority of the money by the end 
of FY 2011 in order to maximize the creation of jobs. The EM Recovery 
Act program has obligated more than $5.4 of the $6 billion of Recovery 
Act funding, and more than $2.3 billion has been paid out. 
Approximately 10% of the 91 EM Recovery Act projects are now scheduled 
to extend into FY 2012. In regard to project performance, a recent GAO 
report identifies that a number of the Recovery Act projects are not 
currently meeting their original cost and schedule goals. Examples of 
these project variances include: greater than initially planned volumes 
of contaminated soils, resulting in higher costs for excavation and 
disposal; delays due to changes in initial waste type characterization 
assumptions; and contract issues causing delays in work start date.
    EM Senior Management continues to be fully engaged with all the 
Recovery Act projects on a regular basis, including monthly project 
reviews with each of the sites. EM Management also requires each 
project with less than satisfactory performance to develop a recovery 
plan that fully defines the issues and contains the corrective actions 
necessary to bring the projects back on track and within cost and 
schedule. At this time it appears that all of the projects are 
recoverable and will meet Recovery Act performance objectives.
    Mr. Langevin. Will you meet your stated goal of reducing the active 
cleanup footprint by 40 percent by fiscal year 2011? When will these 
cleaned up lands be transferred back to the communities?
    Secretary Triay. The Office of Environmental Management (EM) is on 
track to complete 40-percent footprint reduction by the end of Fiscal 
Year 2011. Footprint reduction is defined as the physical completion of 
EM activities with petition for regulatory approval to follow. The bulk 
of the footprint reduction is at Richland and Savannah River. Although 
EM will be complete with the active cleanup of these areas, there will 
still be long-term ground water monitoring activities in some areas 
that will necessitate institutional control.
    There is no schedule or plan to transfer the land due to the 
ongoing groundwater remediation activities and the fact that some of 
the sites belong to another Program's mission and EM's responsibility 
is only to clean the site up.
    Mr. Langevin. Are you on track to execute all of the additional 
funding before it expires?
    Secretary Triay. Since all Recovery Act work is scheduled to be 
completed by FY 2012, we will spend all the funds before they expire in 
FY 2015.
    Mr. Langevin. Will all defense cleanup sites be able to meet their 
respective regulatory milestones in FY10 and FY11?
    Secretary Triay. EM defense cleanup sites are currently positioned 
to meet all regulatory milestones in FY 2010 and FY 2011.
    Mr. Langevin. President Obama has indicated that he does not intend 
to pursue Yucca Mountain as a long-term repository for high-level 
waste. Yucca Mountain remains designated, by law, as a repository for 
high-level radioactive waste.
    What are the implications of the cancellation of the Yucca Mountain 
repository on EM's ability to manage and consolidate defense waste?
    Secretary Triay. The Department remains committed to meeting its 
obligations for managing and ultimately disposing of spent nuclear fuel 
and high-level radioactive waste. The Administration's decision not to 
proceed with the Yucca Mountain repository does not affect the Office 
of Environmental Management's (EM) plans to retrieve and treat for 
long-term interim storage high-level waste currently stored in tanks or 
to treat and stabilize and store spent nuclear fuel. EM is focused on 
addressing environmental and health risks by placing high-level waste 
and spent nuclear fuel in safe and stable configurations for long-term 
interim storage.
    EM's near term plans to treat the high-level waste for interim 
storage and to safely store spent nuclear fuel are not impacted by the 
decisions to evaluate alternatives for spent nuclear fuel and high-
level waste.
    Mr. Langevin. In November 2009, you implemented an organizational 
restructuring of EM's senior leadership. This included the creation of 
new positions for the Chief Technical Officer and Chief Business 
Officer, and changed reporting lines for many EM offices.
    The Office of Environmental Management has undergone several 
organizational changes in its short history. How does this latest 
reorganization improve upon the reorganization implemented by your 
immediate predecessor? Why was another reorganization needed?
    Secretary Triay. By having the Office of Environmental Management 
(EM) Field Organizations report directly to my office--the Office of 
the Assistant Secretary--I have clearly established direct authority 
and accountability for the execution of the EM program. This also 
recognizes and sharpens the focus of EM Headquarters. Program 
definition, priorities, policy, planning, budgeting and oversight are 
the province and responsibility of the headquarters organization. 
Program implementation is a Field responsibility.
    The reorganization is intended to make clear the roles and 
responsibilities of headquarters and field entities. Specifically, 
Office of Environmental Management (EM) Field Managers are directly 
responsible and accountable to my office for program implementation. If 
the Field Managers perform well and deliver their projects at cost and 
on schedule, they will be given more responsibility. However, if they 
have difficulty with project success, there will be greater involvement 
from Headquarters. For Field Managers, this provides a new mindset on 
the headquarters interface, but it also raises expectations on 
performance. This management approach will not be ``one-size-fits-
all.'' It will be based on how successful the Field Managers are in 
delivering projects on time and within cost.
    In addition, the creation of a Chief Business Officer and Chief 
Technical Officer provides me with a fully integrated team of senior 
leaders to ensure that EM speaks and acts with one voice. Together, we 
will assure that the entire organization is led in a more cohesive and 
consistent manner.
    Mr. Langevin. The Safety Board has been evaluating the safety basis 
for the Waste Treatment and Immobilization Plant (WTP) at the Hanford 
Site, and technical issues remain open. The established annual funding 
baseline, intended to provide programmatic stability for the WTP, is 
$690 million annually. The budget request for FY 2011 contains $740 
million for the WTP.
    Secretary Triay, considering the outstanding technical concerns 
regarding the safety criteria for the Waste Treatment Plant, why did EM 
choose to request an additional $50 million for FY 2011 above the 
established $690 million per year level to accelerate engineering, 
design, and procurements?
    Secretary Triay. The Office of Environmental Management (EM) is 
committed to resolving the remaining major technical issues and 
completing the Waste Treatment Plant project within the currently 
approved cost and schedule baselines. To achieve these commitments, EM 
plans to resolve the major outstanding technical issues over the next 
few months, and to pursue completion of the engineering design as soon 
as possible. To facilitate this, some vendor design information for 
engineered equipment will be required. So in addition to increased 
design efforts, there will be some additional procurement costs in FY 
2011 associated with securing the necessary vendor design information 
as well. The completion of the vendor and contractor engineering design 
will allow for better planning and reducing risks associated with the 
delivery of material, completion of construction, and preparation for 
commissioning.
    Mr. Langevin. The Safety Board has been evaluating the safety basis 
for the Waste Treatment and Immobilization Plant (WTP) at the Hanford 
Site, and technical issues remain open. The established annual funding 
baseline, intended to provide programmatic stability for the WTP, is 
$690 million annually. The budget request for FY 2011 contains $740 
million for the WTP.
    Chairman Winokur, please discuss your ongoing technical evaluation 
relating to the Pretreatment facility. Do you have confidence that the 
WTP is on a strong footing to accelerate spending in FY 2011?
    Dr. Winokur.
    1. Ongoing technical evaluation of the Pretreatment Facility.
    The Board is continuing to review the resolution of current safety-
related design issues, emerging safety-related elements of the 
Pretreatment Facility (PTF) design, and the continued development of 
the PTF safety documentation. The primary areas of Board concern remain 
(1) the development of the hydrogen mitigation strategies associated 
with hydrogen in pipes and ancillary vessels (HPAV), and (2) adequate 
pulse jet mixing to ensure that process vessels maintain hydrogen 
concentrations below flammable limits and to prevent the build-up of a 
critical mass of fissile material. These concerns are well documented 
in the Board's Quarterly Reports to Congress and remain a significant 
technical risk for the project.
    The Board is also reviewing other safety-related aspects of the 
Pretreatment Facility (PTF) design, including the classification and 
design of safety-related structures, systems, and components required 
to protect the public and collocated workers. Major safety-related 
systems still under review include the process vessel ventilation 
system, the safety class aspects of the electrical distribution system 
including the emergency diesel generator design, and the pulse jet 
mixing systems in Newtonian vessels.
    The Board is continuing to review safety-related documentation, as 
it is prepared by the Department of Energy-Office of River Protection 
(DOE-ORP) and its contractor Bechtel National Incorporated (BNI) in 
support of the safety and design bases for the PTF. For example, in the 
month preceding this response, the project issued revised calculations 
supporting the classification of safety-related systems (severity level 
assessments), and a revised Preliminary Documented Safety Analysis 
(PDSA) addendum. The project is continuing to develop the waste 
acceptance criteria (WAC), i.e., the technical basis supporting which 
wastes will be allowed to be sent from the High Level Waste Tanks to 
the PTF, as well as tank farm strategies to characterize and control 
the waste input to the PTF. As an aside, the Board will also have to 
evaluate the impacts of the WAC on existing as well as planned Tank 
Farm facilities and functions. The Board anticipates that DOE-ORP will 
continue to develop the required safety-related documentation for the 
PTF well into the future, e.g., until the final documented safety 
analysis is completed in support of facility operation.
    2. Confidence to accelerate spending.
    The Board believes that DOE's ability to effectively accelerate 
spending in FY 2011 depends on their capability to manage the existing 
technical risk and properly identify and manage future technical risks. 
DOE-ORP has assessed the uncertainties associated with these unresolved 
issues and concluded that design and procurements could proceed based 
on a presumption that these risks will be resolved in the near future. 
The Board remains concerned that the resolution of these technical 
issues will impact the facility's design. Therefore, any additional 
resources DOE can apply to address these technical issues will be 
beneficial. Beyond this, the Board is not in a position to comment on 
DOE's ability to accelerate spending in Fiscal Year 2011.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. SPRATT
    Mr. Spratt. As you know, the Administration is proposing to 
reprogram $115 million from the Office of Civilian Waste Management, 
intended to defend the combined operating license application for Yucca 
Mountain. While I believe this is a clear contradiction to 
Congressional intent, there are also real effects this will have on 
operations at various NNSA sites, including SRS. Many projects 
including MOX, the Salt Waste Processing Facility and the Defense Waste 
Processing facility have Yucca Mountain in the Record of Decision as 
the ultimate site waste disposal. In addition, there are penalties to 
be paid to South Carolina should the material not be removed.
    How much extra cost would Yucca not opening add to your long-term 
budget costs? Also, would you have to amend every EIS mentioning Yucca? 
How long would that take? How much would it cost?
    Secretary D'Agostino. At this time we have not identified any 
additional cost incurred due to the closure of the Yucca Mountain 
repository project and the Office of the Civilian Radioactive Waste 
Management. We are evaluating the impacts on Departmental environmental 
documents mentioning Yucca Mountain as the destination for the spent 
nuclear fuel and high-level radioactive waste, but do not believe it is 
necessary to amend the environmental impact statements. The Department 
is still committed to meeting its obligations to remove and dispose of 
the spent nuclear fuel and high-level waste. The Blue Ribbon Commission 
will be evaluating options, and depending on the actions the government 
will take in the future, all appropriate environmental requirements 
will be met.
    Mr. Spratt. How much has DOE contributed to the Nuclear Waste Fund? 
How much has DOE contributed to the fund? How much is budgeted in FY11? 
Will you suspend payments to the fund should Yucca be taken off the 
table?
    Secretary D'Agostino. The Department does not contribute to the 
commercial Nuclear Waste Fund, but, instead, receives monies from the 
Fund to the extent that Congress appropriates them. No funds from the 
Nuclear Waste Fund have been requested for DOE in the President's FY 
2011 budget request. The Administration does not believe that payments 
by industry into the Nuclear Waste Fund should be suspended.
    Mr. Spratt. As you know, the Administration is proposing to 
reprogram $115 million from the Office of Civilian Waste Management, 
intended to defend the combined operating license application for Yucca 
Mountain. While I believe this is a clear contradiction to 
Congressional intent, there are also real effects this will have on 
operations at various NNSA sites, including SRS. Many projects 
including MOX, the Salt Waste Processing Facility and the Defense Waste 
Processing facility have Yucca Mountain in the Record of Decision as 
the ultimate site waste disposal. In addition, there are penalties to 
be paid to South Carolina should the material not be removed.
    How much extra cost would Yucca not opening add to your long-term 
budget costs? Also, would you have to amend every EIS mentioning Yucca? 
How long would that take? How much would it cost?
    Secretary Triay. The Secretary has determined that Yucca Mountain 
is not a workable option and has established the Blue Ribbon Commission 
to conduct a comprehensive review of policies for managing the back end 
of the fuel cycle including all alternatives for the storage, 
processing, and disposal of high-level waste and used nuclear fuel. The 
Department remains committed to meeting its responsibilities for the 
disposal of high-level radioactive waste and used nuclear fuel. Until a 
new option is selected, any analysis of the long-term budgetary 
implications for NNSA sites would be speculative.
    In the case of the Hanford Tank Closure and Waste Management EIS, 
which was in preparation when DOE moved to withdraw the Yucca Mountain 
license application, an analysis was performed of the impacts of 
continuing to store vitrified waste on site.
    Mr. Spratt. How much has DOE contributed to the Nuclear Waste Fund? 
How much has DOE contributed to the fund? How much is budgeted in FY11? 
Will you suspend payments to the fund should Yucca be taken off the 
table?
    Secretary Triay. The Department's contribution for disposal of its 
used fuel and high-level waste in a combined repository has been direct 
funded through appropriations since 1993. Funds are under a separate 
account entitled the Defense Nuclear Waste Appropriation and are not 
deposited into the Nuclear Waste Fund. Funds are expended annually and 
do not accrue interest. To date, the government has funded 
approximately $3.75 billion to the Office of Civilian Radioactive Waste 
Management (OCRWM) for the government share of the costs of OCRWM.
    The Department has stated its intent to meet its obligations to 
dispose of spent nuclear fuel and high-level waste and therefore has no 
basis to suspend collection of fees from nuclear utilities to the 
Nuclear Waste Fund. The Department will continue to evaluate the 
adequacy of the fee annually as it is required to do by the Nuclear 
Waste Policy Act.
                                 ______
                                 
                    QUESTION SUBMITTED BY MR. LARSEN
    Mr. Larsen. Administrator D'Agostino, I understand the NNSA is 
engaging other national security agencies such as the Department of 
Defense, the Department of Homeland Security, and the Intelligence 
Community to develop a framework or Memorandum of Agreement (MOA) for 
interactions between NNSA and the broader national security community. 
As you well know, several national laboratories--including a number of 
Science laboratories, like PNNL in my home state of Washington--are 
major contributors to the Department's national security mission and 
that of other national security agencies and departments. Will this MOA 
exclusively apply to NNSA weapons labs, or will it apply more broadly 
to other DOE laboratories that help the NNSA fulfill its mission, and 
therefore bring more DOE assets to bear on the national security 
challenges we face as a nation?
    Secretary D'Agostino. The NNSA has taken a leadership role for the 
Department of Energy in forging strategic partnerships with other 
agencies with national security responsibilities, in the area of 
national security science, technology and engineering (ST&E). NNSA has 
been working with the Department of Homeland Security, the Director of 
National Intelligence and the Department of Defense in the development 
of a multiagency governance charter to provide a forum for the national 
security agencies to align the DOE's significant laboratory ST&E 
infrastructure with complex national security problems that are 
important to the nation. The governance charter will establish an 
interagency council of federal officials where both long-term and 
urgent mission needs can be discussed and balanced against the 
Department's current and future capabilities at its national 
laboratories. Any laboratory among the full suite of DOE national 
laboratories could potentially be engaged in this effort, including 
Pacific Northwest National Laboratory. Following the Secretary's 
vision, all of the Department's national laboratories will be involved 
in this dialogue.

                                  <all>

</pre></body></html>
